<html>
<title> - ASSESSING THE HOMELAND SECURITY IMPACTS OF A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    ASSESSING THE HOMELAND SECURITY IMPACTS OF A CHANGING CLIMATE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-12

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-453 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="34445b74574147405c5158441a575b591a">[email&#160;protected]</a>                                  
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Ms. Astrid Caldas, PhD, Senior Climate Scientist, Union of 
  Concerned Scientists:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Timothy Manning, Senior Advisor, Pacific Disaster Center, and 
  President and CEO, Berglind-Manning, L.C.:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Ms. Kristie Trousdale, MPh, Deputy Director, Children's 
  Environmental Health Network:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Mr. Dan Eggleston, EFO, CFO, CMO, President and Chairman of the 
  Board, International Association of Fire Chiefs:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28

                                
                                Appendix

Question From Chairman Donald M. Payne, Jr. for Astrid Caldas....    47
Questions From Chairman Donald M. Payne, Jr. for Dan Eggleston...    47

 
     ASSESSING THE HOMELAND SECURITY IMPACTS OF A CHANGING CLIMATE

                              ----------                              


                         Tuesday, April 9, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:11 p.m., in 
room 310, Cannon House Office Building, Hon. Donald M. Payne, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Payne, Rose, Underwood, Clarke, 
King, Joyce, and Crenshaw.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order. The subcommittee is 
meeting today to receive testimony on ``Assessing the Homeland 
Security Impacts of a Changing Climate.''
    So good afternoon. I want to thank the witnesses for being 
here today to discuss this incredibly important topic.
    I am especially glad that the subcommittee hearing is 
leading the Committee on Homeland Security's efforts on climate 
change this Congress. The last time this committee held a 
noticed activity on climate change, it was in 2015 when the 
Republicans held a hearing entitled ``Examining DHS's Misplaced 
Focus on Climate Change.''
    Let me be clear: Climate change is here, it is happening, 
and the scientific evidence is there, and it is a threat to our 
security. If continued unchecked, the effects of climate change 
will have a devastating impact on nearly every aspect of 
American life. Scientists from all over the world are clear: If 
we do not start taking steps to address this issue, it will 
soon be too late.
    As climate change continues to make extreme weather events 
worse, our critical infrastructure will be at risk of failing--
a terrifying prospect for our homeland security. That risk is 
increasing, according to researchers at the RAND Corporation, 
as we see stronger disasters and an under-investment in 
resiliency.
    It is not just infrastructure, but it is also health care 
systems, food production, military installations, commerce, and 
so much more that are at risk--all things that are critical to 
our homeland security.
    With the FEMA work force already stretched too thin to 
adequately respond to current disasters, there are serious 
questions as to how they will be able to respond as climate 
change intensifies hurricanes and other disasters.
    However, instead of trying to incorporate climate change in 
how it plans for the future, FEMA has stripped any mention of 
it from their 2018-2022 strategic plan which guides the 
agency's actions over the next few years.
    But you don't have to look far into the future to see how 
climate change is affecting us. It is no coincidence that 18 of 
the 19 warmest years on record have occurred since 2001. The 
world is getting warmer, and that is a fact.
    Or take, for instance, Hurricane Harvey, one of the most 
devastating storms in recent history. Studies have shown that 
the rainfall during Hurricane Harvey, which was over 60 inches, 
was as much as 38 percent higher than would be expected in a 
world without climate change.
    This isn't some far-off phenomenon. This is affecting real 
people right now--the thousands of residents in and around 
Houston who dealt with flooding and whose lives are still being 
put back together.
    In my own home State of New Jersey, we are seeing some of 
the most intense warming trends in our country. In an analysis 
of data from the National Oceanic and Atmospheric 
Administration, New Jersey is one of the top 3 fastest-warming 
States in the country.
    Yet, despite these dire warnings, the Federal Government is 
doing nothing to try to stop the effects of climate change. In 
fact, it is making the problem worse by rolling back rules and 
regulations aimed at reducing greenhouse gas emissions and 
rolling back smart building rules to protect infrastructure 
from floods.
    Despite controlling the House for the past 8 years, 
Republicans in Congress did nothing to address what scientists 
agree will be the devastating effects of climate change.
    Today, we have an expert panel of witnesses that can 
discuss the science of climate change, why it matters to our 
homeland security, and the effects on children, who are a 
particularly vulnerable population when faced with extreme 
weather events. I look forward to hearing their views on this 
topic.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                             April 9, 2019
    I'm especially glad that this subcommittee hearing is leading the 
Committee on Homeland Security's efforts on climate change this 
Congress. The last time this committee held a noticed activity on 
climate change, it was in 2015, when Republicans held a hearing 
entitled ``Examining DHS's Misplaced Focus on Climate Change.'' Let me 
be clear: Climate change is here. It's happening. The scientific 
evidence is there, and it is a threat to our security. If continued 
unchecked, the effects of climate change will have a devastating impact 
on nearly every aspect of American life. Scientists from all over the 
world are clear, if we don't start taking steps to address this issue, 
it will soon be too late.
    As climate change continues to make extreme weather events worse, 
our critical infrastructure will be at risk of failing, a terrifying 
prospect for our homeland security. That risk is increasing, according 
to researchers at the Rand Corporation, as we see stronger disasters 
and an underinvestment in resiliency. It's not just infrastructure, but 
also health care systems, food production, military installations 
commerce, and so much more that is at risk. All things that are 
critical to our homeland security. With the FEMA workforce already 
stretched too thin to adequately respond to current disasters, there 
are serious questions as to how they will be able to respond as climate 
change intensifies hurricanes and other disasters. However, instead of 
trying to incorporate climate change in how it plans for the future, 
FEMA has stripped any mention of it from their 2018-2022 strategic 
plan, which guides the agency's actions over the next few years.
    But you don't have to look far into the future to see how climate 
change is affecting us. It's no coincidence that 18 of the 19 warmest 
years on record have occurred since 2001. The world is getting warmer, 
and that's a fact. Or, take, for instance, Hurricane Harvey, one of the 
most devastating storms in recent memory. Studies have shown that the 
rainfall during Hurricane Harvey, which was just over 60 inches, was as 
much as 38 percent higher than would be expected in a world without 
climate change. This isn't some far-off phenomenon, this is affecting 
real people right now. The thousands of residents in and around Houston 
who dealt with flooding, and whose lives are still being put back 
together.
    In my own home State of New Jersey, we are seeing some of the most 
intense warming trends in the country. In an analysis of data from the 
National Oceanic and Atmospheric Administration, New Jersey is one of 
the top 3 fastest-warming States in the country. Yet, despite these 
dire warnings, the Federal Government is doing nothing to try and stop 
the effects of climate change. In fact, it is making the problem worse 
by rolling back rules and regulations aimed at reducing greenhouse gas 
emissions and rolling back smart building rules to protect 
infrastructure from floods. Despite controlling the House for the past 
8 years, Republicans in Congress did nothing to address, what 
scientists agree, will be the devastating effects of climate change.
    Today, we have an expert panel of witnesses that can discuss the 
science of climate change, why it matters to our homeland security, and 
the effects on children, who are a particularly vulnerable population 
when faced with extreme weather events. I look forward to hearing their 
views on this topic.

    Mr. Payne. With that, I now recognize the Ranking Member of 
the subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. I regret that I got here 
late. I was over on the House floor, and there was sort of a 
mix-up on when the votes were going to start. But, in any 
event, I appreciate you having this hearing.
    The bottom line is, from the wildfires on the West Coast 
and tornadoes in the South to the hurricanes along the eastern 
seaboard of the United States, no area of the country is immune 
to the devastating effects of natural disasters.
    But pre-disaster mitigation has the potential to limit the 
negative effects of natural disasters. These pre-disaster 
mitigation efforts by policy makers, individuals, first 
responders, and emergency preparedness professionals must 
ensure that no geographic region of the country is left 
unsupported.
    Mitigation activities include upgrading and strengthening 
existing structures from all hazards, identifying sustainable 
flood and erosion control projects, purchasing hurricane 
shutters to resist wind, and managing vegetation to reduce 
potential fire fuel.
    The FEMA's Hazard Mitigation Grant Program helps 
communities implement hazard mitigation measures following a 
Presidential major disaster declaration to reduce the risk of 
loss of life and property from future disasters.
    To receive funds through this grant program, FEMA requires 
each State complete a State hazard mitigation plan. New York's 
2019 State hazard mitigation plan highlights 5 goals and 
objectives, to include: Coordination between Federal, State, 
and local entities; protection of existing properties; 
increasing awareness of hazard risk and mitigation capabilities 
among stakeholders, citizens, and elected officials alike; 
preserving or restoring the functions of natural systems; and 
to build stronger infrastructure.
    Not only do mitigation activities aim to reduce deaths, 
injuries, and property damage, they also have the potential to 
limit the economic impact of disaster recovery efforts. A 
recent report by the National Institute of Building Sciences 
found that, by designing buildings to meet 2018 building code 
standards, the National mitigation benefit-cost ratio is $6 to 
$1 invested for floods and $10 to $1 invested for hurricanes 
and $12 to $1 invested for earthquakes.
    The report also found that impacts of 23 years of Federal 
mitigation grants provided by FEMA, the Economic Development 
Administration, and HUD resulted in National benefit of $6 to 
$1 invested.
    Unfortunately, our focus on emergency preparedness 
oftentimes occurs in the aftermath of a natural disaster, which 
is too late. However, as we have hardened our defenses 
preemptively in the event of a terrorist attack, we also must 
be prepared for the devastation of a severe weather event.
    The reality is that natural disasters will continue to 
occur. We should use every disaster as an opportunity to learn 
and improve our mitigation capabilities to decrease the loss of 
life and damage to our homes and infrastructure.
    I would also say, Mr. Chairman, though, that I would hope 
that, as we go forward on this, we focus on what can be done as 
far as mitigation rather than get into a debate over climate 
control.
    I am not disputing anything that you said, but this 
committee was established back in 2001, 2002, and 2003 because 
of the attacks at 9/11. There are any number of other 
committees in the House that do deal with natural disasters, do 
deal with climate control. While we have a role to play, I 
would say I don't want us to go too far afield. We have a hard 
enough time coordinating our efforts against terrorism.
    We always say that other committees are cutting into our 
turf. We have always said that there should be a focus of our 
committee on counterterrorism and terrorism. That can be, 
obviously, expanded to white supremacist groups here in the 
country. But it is geared toward acts of violence and acts of 
terrorism.
    If we focus our efforts going beyond what I believe is the 
role of Homeland Security in meeting these natural disasters, 
then I think we are diluting our efforts and really 
undercutting the purpose of why this committee was formed back 
in--I guess it was 2003 before it actually came into effect.
    So, with that, again, I commend you for holding the hearing 
today, but I do hope that, as we go forward, we realize that 
our main goal as a committee, our main purpose from the genesis 
was to focus on terrorism. I realize that has been expanded 
now, which I understand. I support that. But I think we should 
leave the debate over climate control and global warming to 
other committees.
    We can, let's just say, accept for the purpose of the 
argument that everything is true, and then we should focus on 
what the mitigation should be, rather than getting into debates 
on how to change the climate, or prevent climate change.
    With that, I yield back. I also look forward to the 
testimony of all the witnesses, and I appreciate them taking 
the time to be here today.
    I yield back.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
    Thank you, Mr. Chairman. From the wildfires on the West Coast and 
tornadoes in the South, to the hurricanes along the eastern seaboard of 
the United States, no area of the country is immune to the devastating 
effects of natural disasters.
    However, pre-disaster mitigation efforts by policy makers, 
individuals, first responders, and emergency preparedness professionals 
ensure that no geographic region of the country is left unsupported.
    Pre-disaster mitigation has the potential to limit the negative 
effects of natural disasters.
    Mitigation activities include upgrading and strengthening existing 
structures from all hazards, identifying sustainable flood and erosion 
control projects, purchasing hurricane shutters to resist wind, and 
managing vegetation to reduce potential fire fuel.
    The FEMA's Hazard Mitigation Grant Program helps communities 
implement hazard mitigation measures following a Presidential Major 
Disaster Declaration, to reduce the risk of loss of life and property 
from future disasters.
    To receive funds through this grant program, FEMA requires that 
each State complete a State Hazard Mitigation Plan.
    New York's 2019 State Hazard Mitigation Plan highlights five goals 
and objectives to include:
  <bullet> coordination between Federal, State, and local entities;
  <bullet> the protection of existing properties;
  <bullet> increasing awareness of hazard, risk, and mitigation 
        capabilities among stakeholders, citizens, and elected 
        officials alike;
  <bullet> preserving or restoring the functions of natural systems; 
        and,
  <bullet> to build stronger infrastructure.
    Not only do mitigation activities aim to reduce deaths, injuries, 
and property damage, they also have the potential to limit the economic 
impact of disaster recovery efforts.
    A recent report by the National Institute of Building Sciences 
found that by designing buildings to meet 2018 building code standards, 
the National mitigation benefit-cost ratio is $6 to $1 invested for 
floods, $10 to $1 invested for hurricanes, and $12 to $1 invested for 
earthquakes.
    The report also found that the impacts of 23 years of Federal 
mitigation grants provided by FEMA, the Economic Development 
Administration, and the Department of Housing and Urban Development, 
result in a National benefit of $6 for every $1 invested.
    Unfortunately, our focus on emergency preparedness oftentimes 
occurs in the aftermath of a natural disaster, which is too late.
    However, as we've hardened our defenses preemptively in the event 
of a terrorist attack, we must also be prepared for the devastation of 
a severe weather event.
    The reality is that natural disasters will continue to occur, and 
we should use every disaster as an opportunity to learn and improve our 
mitigation capabilities to decrease the loss of life and damage to our 
homes and infrastructure.
    I look forward to hearing from our witnesses today on how to 
continue to improve our preparedness and mitigation capabilities in the 
face of the unpredictable nature of disasters and emergencies.

    Mr. Payne. Well, I would like to thank the gentleman. It is 
duly noted. I respect your concern in that area, and we will 
continue to try to work toward our goal, which is to keep the 
country safe.
    Mr. King. Mr. Chairman, I have no doubt of your dedication, 
believe me. I want that on the record clear as day.
    Mr. Payne. Thank you. Yours, as well.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 9, 2019
    The very real and sad truth is that climate change is upon us. 
Unfortunately, under the Republican-controlled House, the Nation lost 8 
years of Congressional oversight and planning for climate change.
    As recently as 2015, Members of this committee were debating the 
value of the Federal Government working to address climate change. We 
cannot afford to have years go by where Congress sits idly by as 
climate change produces more deadly and frequent natural disasters. A 
changing climate is a threat to U.S. infrastructure, agriculture, 
economy, health care, population, and so much more. This all makes it a 
clear and serious threat to our homeland security.
    During the hyperactive 2017 hurricane season and unprecedented 
California wildfires, we bore witness to the unfortunate impacts of 
climate change. Hurricane Harvey, for example, was one of the most 
significant rain events in U.S. history. Through science, we know that 
the increased temperatures caused more rainfall, and subsequently this 
extreme rain event.
    Science also helps us to understand that human behavior is the 
largest contributing factor to climate change. Therefore, it is 
incomprehensible that the Trump administration continues to roll back 
regulations that help to mitigate the impacts of climate change.
    Instead of facing this problem head on, the Department of Homeland 
Security, as well as other agencies under Trump, refuse to even mention 
climate change, as if not mentioning it would make it go away. We 
cannot have DHS, who oversees FEMA, simply ignore a problem that is so 
critical to our homeland security.
    We have reports from the Department of Defense, the Government 
Accountability Office, and even the Department of Homeland Security in 
previous administrations, that have recognized this threat. It will 
threaten our military bases and critical infrastructure, reduce our 
agricultural yields, and make the spread of disease more prevalent.
    Another sad truth is that low-income communities will suffer 
compounded impacts of climate change. As a Hurricane Katrina survivor, 
I understand the toll one intense disaster can have on communities--
especially low-income communities.
    With it being already more difficult for low-income communities to 
recover from major disasters, it is unfathomable to imagine how these 
communities will deal with having intense disasters on a more regular 
basis. More frequent and extreme weather also puts an incredible strain 
on Federal resources; inhibiting response and recovery activities. We 
saw this unfold in Puerto Rico following Hurricane Maria, where by the 
time the storm hit, Federal resources were stretched so thin that the 
island that suffered from a subpar response, contributing to an 
astonishing death toll of 3,000.
    The Federal Government is already incapable of adequately 
responding to the disasters we're seeing now, let alone as they get 
worse in future years. We cannot continue to allow climate change to 
intensify. We must do what we can to promote a cleaner environment that 
can be sustained for generations to come.
    Investments today in mitigation, that will reduce the future damage 
of extreme weather events, is a smart down payment for our safety and 
security, and this administration should be working with Congress to 
make that happen.

    Mr. Payne. Our panel. Let me--I welcome our panel of 
witnesses.
    Our first witness, Dr. Astrid Caldas--I am sorry. I did a 
job on that one, didn't I?
    Ms. Caldas. You are almost there, sir.
    Mr. Payne [continuing]. Is a senior climate scientist with 
the Union of Concerned Scientists.
    Next we have Mr. Tim Manning, a former deputy administrator 
of the Federal Emergency Management Agency and currently a 
senior advisor to the Pacific Disaster Center and president and 
CEO of Berglind-Manning, L.C.
    Next we have Ms. Kristie Trousdale, who is the deputy 
director of Children's Environmental Health Network.
    Last we have Chief Dan Eggleston, who is the president and 
chairman of the board for the International Association of Fire 
Chiefs.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Dr. Caldas.
    Say it for me one time.
    Ms. Caldas. Excuse me?
    Mr. Payne. Say your name for me one time.
    Ms. Caldas. Astrid Caldas.
    Mr. Payne. Astrid Caldas. Thank you. You may proceed.

  STATEMENT OF ASTRID CALDAS, PH D, SENIOR CLIMATE SCIENTIST, 
                 UNION OF CONCERNED SCIENTISTS

    Ms. Caldas. Thank you.
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, thank you for inviting me to testify about 
climate change science and impacts.
    I am Astrid Caldas, a senior climate scientist at the Union 
of Concerned Scientists, and I will focus on general impacts 
and not on the military. The sources for our information are in 
my submitted written testimony.
    Eighteen of the 19 warmest years since record keeping began 
have occurred since 2001. Many high school graduates from the 
class of 2019 have lived their whole lives in a world of 
record-breaking temperatures. The last 5 years have been the 5 
hottest of all.
    There is strong consensus among the scientific community 
that global warming and climate change have been happening for 
decades, are caused by humans through the emission of carbon 
dioxide from the burning of fossil fuels, and that the need for 
emissions reductions is urgent to avoid the worst consequences.
    Two recent scientific assessment reports state that 
millions of people, including here in the United States, are 
already being affected by worsened heat, drought, wildfires, 
flooding from extreme precipitation and sea-level rise, and 
stronger hurricanes. Economic impacts are staggering. The past 
3 years have been 3 of the 4 costliest years for climate-
related disasters in the United States.
    Climate change is expected to make these disasters worse 
unless we put all our might into reducing heat-trapping 
emissions.
    There were 13 extreme rain events in the United States 
between May 2015 and June 2018 even though such events had, 
historically, a probability of 0.2 percent of occurring in any 
1 year. The type of devastating rain that fell in Louisiana in 
2016 is expected to occur 40 percent more often and be 10 
percent more intense now than it was before global warming.
    Extreme rain events have become more frequent and more 
intense, especially in the Northeast and the Midwest. With more 
extreme rain, flood frequency has increased in the Mississippi 
River Valley and across the Midwest over the last century. 
Eastern Pennsylvania, New York, and New Jersey have also 
experienced an increase in flood frequency over the last 50 
years.
    There has been an increase in the intensity of hurricanes 
since 1970. A warmer sea surface and higher humidity in the air 
provide fuel to stronger hurricanes, the latter increasing the 
amount of rain they bring. The record-breaking rainfall from 
Hurricane Harvey was about 3 times more likely and 15 to 38 
percent more intense because of global warming. Storm surge is 
riding on higher seas, and the area flooded by Hurricane Sandy 
was about 27 square miles larger than it would have been in 
1880, when seas were 8 inches lower.
    Heat records are being broken much faster than cold 
records, with California experiencing record-breaking heat 
waves in 2017 and 2018. Global warming has contributed to the 
severity and probability of about 80 percent of record-hot days 
globally since the mid-20th Century.
    Droughts are now occurring at higher temperatures. The flow 
of the Colorado River has been reduced, and multi-year droughts 
have led to massive agricultural losses in both California and 
Texas.
    Warming temperatures and dryer soils have contributed to 
increases in area burned, number of large wildfires, and 
wildfire season length. The area burned in the western United 
States between 1984 and 2015 was twice what it would have been 
without climate change. The Tubbs Fire in 2017 was the most 
destructive in California's history, until the Camp Fire of 
2018 surpassed it.
    Finally, climate change can exacerbate historical 
inequities. Socio-economically vulnerable segments of the 
population face big challenges recovering from disasters due to 
lack of resources and historic disfranchising. These 
communities are often located in riskier areas, such as the 
Lower Ninth Ward in New Orleans, which flooded heavily during 
Hurricane Katrina, or can't access resources necessary for 
recovery, such as in Puerto Rico after Hurricane Maria.
    Ignoring climate change will not make it go away or lessen 
its impacts. Investing in climate preparedness will help reduce 
future costs of climate impacts, and cutting global warming 
emissions will help limit the magnitude of those impacts. Only 
action can make it less damaging to our lives, our health, 
economy, and planet.
    Thank you.
    [The prepared statement of Ms. Caldas follows:]
                  Prepared Statement of Astrid Caldas
                             April 9, 2019
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, thank you for providing me the opportunity to testify 
here today on climate change science. I am a senior climate scientist 
at the Union of Concerned Scientists and in that capacity, I am here to 
talk about climate science itself, and climate change impacts. I hope 
you find this testimony valuable to your efforts around Emergency 
Preparedness, Response, and Recovery
    I will start my testimony by calling your attention to the fact 
that 18 of the 19 warmest years since record keeping began have 
occurred since 2001, meaning high school graduates from the class of 
2019 have lived their whole lives in a world of record-breaking 
temperatures. Furthermore, the last 5 years have been the five hottest 
of all.\1\ These are all well-recorded data from various sources around 
the globe and assessed by NOAA and NASA. Global warming is happening 
right now and has been happening for many decades (Figure 1). The trend 
is clear and is slated to continue unless we start putting all our 
might into reducing heat-trapping emissions.
---------------------------------------------------------------------------
    \1\ NOAA 2018 https://www.noaa.gov/news/2018-was-4th-hottest-year-
on-record-for-globe.
---------------------------------------------------------------------------
    Global warming is caused mainly by the accumulation of carbon 
dioxide emissions from the burning of fossil fuels such as coal, oil, 
and natural gas. In addition to warming, this is causing changes in 
countless natural and human systems that rely on and in turn influence 
climate. For instance, among other changes, glaciers are shrinking, 
Arctic sea ice is decreasing, sea level is rising, and oceans are 
getting warmer and more acidic. Global warming and climate change are 
two separate--but deeply interconnected--phenomena.
           figure 1: global land-ocean temperature index \2\
---------------------------------------------------------------------------
    \2\ https://climate.nasa.gov/vital-signs/global-temperature/.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The science of climate change is very well established. Recently, 
two important scientific assessment reports were released that describe 
the current and projected impacts of climate change: The 
Intergovernmental Panel on Climate Change Special Report on Global 
Warming of 1.5C (IPCC 1.5)\3\ and the U.S. Fourth National Climate 
Assessment (NCA4),\4\ mandated by the U.S. Government to be produced 
every 4 years. Climate assessments provide the public and policy makers 
with the most scientifically sound summary and evaluation of the most 
recent policy-relevant research. It is worth noting that each of these 
reports is the product of hundreds of National and international 
experts from a range of sectors.
---------------------------------------------------------------------------
    \3\ https://www.ipcc.ch/sr15/.
    \4\ https://www.globalchange.gov/nca4.
---------------------------------------------------------------------------
    The IPCC 1.5 states that ``Human activities are estimated to have 
caused approximately 1.0 C of global warming above pre-industrial 
levels, with a likely range of 0.8 C to 1.2 C,'' and the NCA4 states 
that ``Earth's climate is now changing faster than at any point in 
modern civilization. [ . . .  ] These changes are primarily the result 
of human activities, the evidence of which is overwhelming and 
continues to strengthen.'' It also states that climate change presents 
growing challenges to: (1) The economy and infrastructure, (2) the 
natural environment and the services ecosystems provide to society, and 
(3) human health and quality of life.\5\
---------------------------------------------------------------------------
    \5\ https://www.globalchange.gov/nca4.
---------------------------------------------------------------------------
    There is strong consensus among the scientific community (as shown 
in the conclusions of the reports, based on thousands of scientific 
research publications) that climate change is happening now, is caused 
by humans, and that the need for emissions reductions is urgent in 
order to avoid the worst consequences. The NCA4 also quantifies climate 
change impacts in economic terms, providing an indication of the 
potential for reducing risks through mitigation actions. The report 
concludes that these climate-related impacts will only get worse and 
their costs will mount dramatically if carbon emissions continue 
unabated. Annual losses in some sectors are projected to exceed $100 
billion by the end of the century and surpass the gross domestic 
product of many States.
    Both reports state that millions of people are already being 
affected on their everyday lives by worsened heat, drought, wildfires, 
flooding from both extreme precipitation and sea level rise, stronger 
hurricanes, and more. The economic impacts and costs of these disasters 
are staggering. The past 3 years have been 3 of the 4 costliest years 
for climate-related disasters here in the United States (Figure 2). Two 
thousand eighteen was the fourth-highest year for both the number and 
costs of declared disasters. Hurricanes Harvey, Irma, Maria, and the 
California wildfires created unprecedented demand for Federal disaster 
help in 2017. The Federal Government has provided at least $120 billion 
in supplemental funding for these disasters, as well as help with 
response and recovery.\6\
---------------------------------------------------------------------------
    \6\ https://www.gao.gov/products/GAO-18-472.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    As the Government Accountability Office points out,\7\ in light of 
growing extreme weather and climate-related disaster costs, the Federal 
Government must invest ahead of time to help communities prepare 
instead of just in recovery after disasters strike. A recent study \8\ 
shows the Nation can save $6 in future disaster costs, for every $1 
spent on pre-hazard mitigation. Investing in climate resilience would 
help reduce future costs of climate impacts and cutting global warming 
emissions would help limit the magnitude of those impacts.
---------------------------------------------------------------------------
    \7\ https://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did- _study.
    \8\ https://www.nibs.org/page/mitigationsaves.
---------------------------------------------------------------------------
    In the past few years the science has advanced to a point where the 
proportion of climate change that contributed to the severity and 
probability of individual extreme events is now possible.\9\ The 
science of attribution tells us that certain types of extreme events 
have been made more intense and/or more likely by climate change 
(Figure 3). There is strong evidence suggesting that extreme 
precipitation (including rain from hurricanes), coastal flooding (from 
high tides and storm surge), and heat waves are influenced by climate 
change. We will look at some examples.
---------------------------------------------------------------------------
    \9\ NAS, 2016: Attribution of Extreme Weather Events in the Context 
of Climate Change. The National Academies Press, 186 pp.
---------------------------------------------------------------------------
 figure 3: scientific evidence for connections between extreme weather 
                     events and climate change \10\
---------------------------------------------------------------------------
    \10\ https://www.ucsusa.org/our-work/global-warming/science-and-
impacts/climate-attribution-science.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                            extreme rainfall
    Studies have shown that extreme precipitation events have become 
more frequent and more intense in many parts of the United States since 
the early to mid-1900's, with the eastern half of the country seeing 
increases of 50 percent or more in extreme rainfall event frequency and 
the western half seeing smaller increases or even decreases. The amount 
of rain falling in the heaviest events is also increasing, especially 
in the Northeast (Figure 4). Warmer air holds more moisture (in the 
form of water vapor), and more moisture means more water can fall as 
rain. This is one reason, all else being equal, a storm occurring in 
very hot air can bring more precipitation than the exact same storm 
would in cooler air.
  figure 4: percent increase in the amount of rain falling during the 
   heaviest 1 percent of events per region in the continental united 
                   states between 1958 and 2016 \11\
---------------------------------------------------------------------------
    \11\ https://www.ucsusa.org/global-warming/global-warming-impacts/
floods; https://www.glo- balchange.gov/nca4.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Rain events once considered rare are now occurring more often than 
historical records would lead us to expect. For example, the U.S. 
National Weather Service recorded 13 rare rain events (not including 
hurricanes) between May 2015 and June 2018 even though such events had 
a 0.2 percent probability of occurring in any 1 year.\12\ All of these 
events led to flooding.
---------------------------------------------------------------------------
    \12\ https://www.nws.noaa.gov/oh/hdsc/aep_storm_analysis/.
---------------------------------------------------------------------------
    Analyses of specific rain events are bringing to light the 
connection between human-induced warming and extreme precipitation. 
Human-caused climate change made the record-breaking rainfall during 
Hurricane Harvey in 2017 about three times more likely and 15-38 
percent more intense,\13\ \14\ and a study of the devastating rains in 
Louisiana in 2016--in which more than 2 feet of rain fell in a 2-day 
period--concluded that such downpours are expected to occur 40 percent 
more often and be 10 percent more intense now than they were before the 
Industrial Revolution and global warming.\15\
---------------------------------------------------------------------------
    \13\ van Oldenborgh, G.J., K. van der Wiel, A. Sebastian, R. Singh, 
J. Arrighi, F. Otto, K. Haustein, S. Li, G. Vecchi, and H. Cullen. 
2017a. Attribution of extreme rainfall from Hurricane Harvey, August 
2017. Environmental Research Letters 12(12):1-11. doi:10.1088/1748-
9326/aa9ef2.
    \14\ Risser, M.D., and M.F. Wehner. 2017. Attributable human-
induced changes in the likelihood and magnitude of the observed extreme 
precipitation during Hurricane Harvey. Geophysical Research Letters 
44(24):12457-12464. doi:10.1002/2017GL075888.
    \15\ van der Wiel, K., S.B. Kapnick, G.J. van Oldenborgh, K. Whan, 
S. Philip, G.A. Vecchi, R.K. Singh, J. Arrighi, and H. Cullen. 2017. 
Rapid attribution of the August 2016 flood-inducing extreme 
precipitation in south Louisiana to climate change. Hydrology and Earth 
System Sciences 21(2):897-921. doi:10.5194/hess-21-897-2017.
---------------------------------------------------------------------------
                                flooding
    More volume of rainfall falling in the heaviest events for a region 
typically leads to flooding. Data from gauges in rivers and streams 
consistently show that flood frequency has increased in the Mississippi 
River valley and across the Midwest over the last century. Similarly, 
parts of the Northeast--eastern Pennsylvania, New York, and New Jersey 
in particular--has experienced an increase in flood frequency over the 
last 50 years (Figure 5). These regions are mostly seeing more floods, 
not necessarily more severe floods, although some increase in moderate 
and major flood frequency risk has occurred, especially in the Midwest.
                figure 5: trends in flood frequency \16\
---------------------------------------------------------------------------
    \16\ https://www.ucsusa.org/global-warming/global-warming-impacts/
floods; Slater, L.J., and G. Villarini. 2016. Recent trends in US flood 
risk. Geophysical Research Letters 43(24):12428-12436. doi:10.1002/
2016GL071199.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               hurricanes
    Recent research suggests that there has been an increase in intense 
hurricane activity in the North Atlantic since the 1970's. With global 
warming, there will likely be more intense hurricanes, whose impacts 
are likely to be exacerbated by sea level rise. Increases in population 
density along the coast also increases the destructive potential of 
hurricanes. The Congressional Budget Office, in a report on potential 
increase in hurricane damage, stated that between 2000 and 2010 the 
population of counties susceptible to hurricane damage grew 22 percent 
faster than the overall U.S. population.\17\
---------------------------------------------------------------------------
    \17\ https://www.cbo.gov/publication/51518.
---------------------------------------------------------------------------
    Hurricanes can form when surface ocean temperatures exceed about 
79F (26 C). The rising of warm, moist air from the ocean helps to 
power the storm. Oceans absorb most of the warming in the atmosphere, 
and since 1970, sea surface temperatures world-wide have warmed by 
about an average of 0.1 C per decade, which provides additional fuel 
to hurricanes. Hurricanes also require high humidity, and since warmer 
air can hold more water vapor, that also helps fuel hurricanes--and 
increase the amount of rain they bring (see Figure 6).
    The impact of a hurricane's storm surge can be worse now than in 
the late 19th Century, because sea level has risen by 8 inches since 
then, mainly due to global warming. In fact, the area flooded by 
Hurricane Sandy in 2012 was about 27 square miles larger than it would 
have been if the hurricane hit in 1880, mainly because of sea level 
rise.\18\
---------------------------------------------------------------------------
    \18\ Miller, K.G., R.E. Kopp, B.P. Horton, J.V. Browning, and A.C. 
Kemp. 2013. A geological perspective on sea-level rise and its impacts 
along the U.S. mid-Atlantic coast. Earth's Future 1(1):3-18. 
doi:10.1002/2013EF000135.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              extreme heat
    With global warming, heat records are being broken much faster than 
cold records.\19\ On average, hot days are getting hotter and cold days 
are also getting hotter globally. In the United States, California 
experienced record-breaking heat waves in 2017 and 2018, in addition to 
several others since the then record-breaking wave of 2006.
---------------------------------------------------------------------------
    \19\ https://science2017.globalchange.gov/.
---------------------------------------------------------------------------
    Extreme heat is one type of extreme weather for which the evidence 
of climate change's influence is strong (see Figure 3), and all over 
the world heat waves are occurring more frequently. A study has found 
that global warming has contributed to the severity and probability of 
about 80 percent of record-hot days globally over the 1961-2010 
period.\20\
---------------------------------------------------------------------------
    \20\ Diffenbaugh, N. S. et al. 2017. Influence of global warming on 
extreme events. Proceedings of the National Academy of Sciences, 114 
(19) 4881-4886; DOI: 10.1073/pnas.1618082114.
---------------------------------------------------------------------------
                               wildfires
    Warming temperatures and drier soils, important factors in 
wildfires, have contributed to increases in area burned, number of 
large wildfires, and wildfire season length. Other factors such as 
wind, land use, and forest management also play roles in determining 
wildfire risk.
    More frequent and extensive wildfires pose threats to lives, 
critical infrastructure, and property. According to the NCA4, the area 
burned in the Western United States between 1984 and 2015 was twice 
what it would have been without climate change \21\ (Figure 7). In 
October 2017, more than a dozen fires burned through northern 
California, killing dozens of people and leaving thousands more 
homeless. The poor air quality as smoke plumes darkened skies caused 
the cancellation of school and other activities across the region. The 
Tubbs Fire, which burned parts of Napa, Sonoma, and Lake counties, was 
the second-most destructive in California's history, with an estimated 
$1.2 billion in damages, including the destruction of over 5,000 
structures. The Camp Fire of 2018 surpassed it in number of structures 
and acreage burned, and in number of deaths.\22\
---------------------------------------------------------------------------
    \21\ https://nca2018.globalchange.gov/chapter/25/.
    \22\ http://calfire.ca.gov/communications/downloads/fact_sheets/
Top20_- Deadliest.pdf.
---------------------------------------------------------------------------
  figure 7: cumulative area burned by wildfires in the western united 
                              states \23\
---------------------------------------------------------------------------
    \23\ https://nca2018.globalchange.gov/chapter/25/#fig-25-4.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
                                drought
    Droughts have always occurred, but they are now occurring at higher 
temperatures, causing massive die-off of forest species in the 4-
corners region (trees that were centuries old and experienced droughts 
before). California is suffering massive losses in its agricultural 
system due to a multi-year drought, and the flow of the Colorado river 
has been reduced due to higher temperatures.
    According to the NCA4, during 2010-2015, a regional drought 
impacted agriculture in the Southern Great Plains, with soybeans fields 
in Texas severely affected due to the reduction of irrigation water 
released for farmers on the Texas coastal plains.
                         equity considerations
    Climate change can exacerbate historical inequities, environmental 
injustice, and environmental racism. Disadvantaged segments of the 
population already face big challenges recovering from disasters, due 
to lack of resources and historical disenfranchising, and disasters 
make these challenges worse. A recent analysis of U.S. Government 
recovery programs showed that ``white Americans and those with more 
wealth often receive more Federal dollars after a disaster than do 
minorities and those with less wealth.''\24\ Also, a recent study 
showed that ``natural hazard damages and how relief is provided 
afterward [in the United States] exacerbate the growing gap between 
white and black wealth.''\25\
---------------------------------------------------------------------------
    \24\ https://www.npr.org/2019/03/05/688786177/how-Federal-disaster-
money-favors-the-rich.
    \25\ Howell, J., & Elliott, J.R. (2018). As Disaster Costs Rise, So 
Does Inequality. Socius. https://doi.org/10.1177/2378023118816795.
---------------------------------------------------------------------------
    Children, older adults, people of color, and fixed and low-income 
communities are often at greater risk. The latter are often located in 
riskier areas that may be more prone to flooding, such as the Lower 
Ninth Ward in New Orleans, which flooded heavily during Hurricane 
Katrina, or have fewer public services and resources necessary for 
recovery from disasters. In Puerto Rico, when hurricane Maria hit, 
almost 3,000 residents died, the majority for lack of access to medical 
services.\26\
---------------------------------------------------------------------------
    \26\ https://publichealth.gwu.edu/sites/default/files/downloads/
projects/PRstudy/Acertain- ment of the Estimated Excess Mortality from 
Hurricane Maria in Puerto Rico.pdf.
---------------------------------------------------------------------------
    Extra attention must be paid to ensure that the vulnerabilities of 
these front-line communities are identified and addressed.
           action is needed on both adaptation and mitigation
    Ignoring climate change will not make it go away or lessen its 
impacts. Only action on both adaptation (reducing and preparing for the 
risks) and mitigation (reducing heat-trapping emissions) can make it 
less damaging to our lives, our health, our economy, and our planet.
    Thank you for this opportunity to speak with you today. I look 
forward to your questions.

    Mr. Payne. Votes have just been called, so the committee 
will stand in recess to allow Members to vote on the floor. The 
committee will reconvene 15 minutes after the conclusion of the 
last vote in this series of votes on the floor.
    So, for right now, we are in recess.
    [Recess.]
    Mr. Payne. The committee will come to order.
    I believe next we have Mr. Tim Manning, former deputy 
administrator of the Federal Emergency Management Agency and 
currently a senior advisor to the Pacific Disaster Center and 
the president and CEO of Berglind-Manning, L.C.
    Mr. Manning.

STATEMENT OF TIMOTHY MANNING, SENIOR ADVISOR, PACIFIC DISASTER 
     CENTER, AND PRESIDENT AND CEO, BERGLIND-MANNING, L.C.

    Mr. Manning. Thank you, Mr. Chairman.
    Chairman Payne, Ranking Member King, Members of the 
subcommittee, thank you for the opportunity to speak with you 
this afternoon on the impact of a changing climate on 
disasters.
    I am Tim Manning, former deputy administrator of FEMA for 
Protection and National Preparedness, currently serving as a 
consultant and university lecturer on disaster and emergency 
management and global resilience. I appreciate the opportunity 
to speak with you on this critical topic today.
    Disasters are increasing with frequency and impact world-
wide. Two-thousand eighteen saw the fourth-highest number of 
billion-dollar disasters, only behind 2017, 2016, and 2011.
    The American disaster preparedness and response community 
has made and continues to make enormous strides in its ability 
to prepare our communities for the risks and hazards with which 
they are faced. Disaster management plans, strategies, 
staffing, response--they are all based in an assessment of 
potential future crises that is in most cases rooted and 
calibrated against an understanding of the hazards and 
disasters of the past.
    My great concern and consideration of the rapidly-changing 
climate is that we may be significantly underestimating the 
risks and hazards with which we are faced and the readiness of 
emergency management agencies to respond. Without an overt and 
concerted effort to account for the impacts of climate change, 
FEMA and the American emergency management community will not 
be fully prepared to protect, mitigate, and respond to the 
threats facing the Nation.
    We know a changing climate makes disasters worse--more 
frequent, more intense storms, often in places unaccustomed to 
such events, impacting infrastructure, exacerbating flooding, 
and even expanding the spread of mosquito- and other insect-
borne diseases.
    A warmer atmosphere holds more moisture and results in 
significantly heavier rainfall in shorter periods of time. 
Heavy precipitation events in the Midwest and Northeast, in 
particular, have increased by up to 50 percent since 1900 and 
may increase as much as another 50 percent over the next 50 
years. With this increase in heat retention comes warmer oceans 
and the potential for stronger, more intense coastal storms, 
including in areas unaccustomed to such events.
    Shifting temperatures result in shifting weather patterns 
in the interior, potentially resulting in greater or less 
snowfall in areas, changing the spring flood risk and other 
impacts.
    Rising sea levels raise the base on which storm surge and 
tsunamis ride, greatly increasing the potential inundation of 
areas, as well as bringing frequent non-storm blue-sky or 
clear-sky flooding to American cities such as Charleston; 
Annapolis, Maryland; and New York City.
    Changing weather patterns affect wildfire risk as well. 
According to analysis by the National Research Council, we have 
experienced an extension of the western fire season of more 
than 2 months in a year. The average size of wildfires has 
increased by 300 percent.
    While many attempts to address the impacts of climate 
change have been made in recent years, as you noted, Mr. 
Chairman, in your opening remarks, the word ``climate'' does 
not occur once in the current 2018 to 2022 FEMA strategic plan. 
One argument is that the general philosophical approach to 
emergency management of all-hazards preparedness, in which 
agencies prepare for any hazard, accounts for any potential 
changes from climate. But that belies the reality.
    Staffing, budgeting, the number and scale of response 
teams, equipment, prepositioning, even response planning 
assumptions are all based on an assessment of what worked or 
didn't in previous disasters. Underestimating the severity, 
frequency, or possible location of disasters will result in 
organizations under-resourced for the mission at hand.
    The strategic objectives of FEMA are laudable. In their 
strategic plan, the goal of quadrupling the investment in 
mitigation is an ambitious and potentially very valuable 
effort. However, if this investment is made against the base 
flood elevation model that does not account for rising sea 
levels and increased rainfall intensity, it can likely lead to 
poor decisions and wasted money and effort.
    In 2015, President Obama issued Executive Order 13690 
which, among other things, established a Federal flood standard 
in recognition of rising sea level and climate change of an 
additional 2 to 3 feet of freeboard for Federally-funded 
projects, including hazard mitigation. However, in August 2017, 
President Trump rescinded that order.
    FEMA and the emergency management community is not likely 
to be right-sized or positioned for its potential disaster 
mission without accounting for a likely future that is very 
different from its recent past.
    The international community recognized this with the Sendai 
Framework for Disaster Risk Reduction, to which the United 
States is a signatory, by calling on nations to, ``prepare or 
review and periodically update disaster preparedness and 
contingency policies, plans, and programs considering climate 
change scenarios and their impact on disaster risk''. We should 
adopt this approach as well.
    Mr. Chairman, thank you again for the opportunity to 
discuss the impact of climate change on disasters and the 
emergency management community in the United States, and I look 
forward to your questions.
    [The prepared statement of Mr. Manning follows:]
                 Prepared Statement of Timothy Manning
                             April 9, 2019
    Chairman Payne, Ranking Member King, Members of the subcommittee, 
thank you for the opportunity to speak with you today on the impact of 
a changing climate on disasters, emergency management agencies, and 
communities' readiness for crises. I am Tim Manning, former deputy 
administrator of FEMA for Protection and National Preparedness, 
currently serving as a consultant and university lecturer in disaster 
and emergency management and global resilience. Thank you for inviting 
me here today to discuss this critical topic
    Disasters are increasing with frequency and impact world-wide. Two 
thousand-eighteen saw the fourth-highest total number of billion-dollar 
disasters, only behind the years 2017, 2011, and 2016. And over the 
past many years, the American disaster preparedness and response 
community has made, and continues to make, enormous strides in its 
ability to prepare our communities for the risks and hazards with which 
they are faced, and respond to the multitude of disasters impacting our 
Nation. In the time between crises, tremendous work is undertaken to 
build the capacity of our governmental and non-governmenetal agencies, 
in staffing, training, equipping, and planning. These efforts, however, 
and the targets against which success is measured, are all based in an 
assessment of potential future crises that is, in most cases, rooted 
and calibrated against an understanding of the hazards and disasters of 
the past. My great concern, in consideration of the significant change 
in the profile of disasters of recent years as a result of a rapidly-
changing climate, coupled with population, housing stock, and GDP 
growth in coastal communities, is that we may be significantly 
underestimating the risks and hazards with which we are faced, and the 
readiness of emergency management agencies to respond. And without an 
overt and concerted effort to account for the impacts of climate 
change, FEMA and the American emergency management community will not 
be fully prepared to protect, mitigate, and respond to the threats 
facing the Nation.
    There is no currently no scientifically-based method, of which I am 
aware, to link any specific individual disaster to climate change. But 
we can predict that a changing climate will make disasters worse--more 
frequent and more intense storms, often in places unaccustomed to such 
events; reduce the effectiveness, or render inoperable, infrastructure; 
exacerbate flooding; and even public health emergencies from the 
potential spread of mosquito and other insect-borne diseases into new 
areas.
    By objective, empirical measures, the Earth's climate is changing. 
The past 5 years have been the hottest 5 years in human history; 8 out 
of the top 10 have been in the past 10, and all of them in past 20. The 
atmospheric gasses that have the greatest impact on heat retention have 
increased to levels never before recorded or measured. Within the past 
few weeks, the NOAA Mauna Loa observatory measurement of carbon dioxide 
in atmosphere was 415 parts per million, a 30 percent increase since 
the 1960's, half again as much as the start of the industrialist 
revolution, and on its way to twice the concentration that has existed 
over the past 10,000 years. Water vapor, the variable with the most 
impact on warming, has also been increasing. As warmer air holds more 
water, a feedback loop develops which may result in further warming. 
Further, a warmer atmosphere holding more moisture can result in 
significantly heavier rainfall in shorter periods of time. According to 
the fourth annual National Climate Assessment, the number of the top-
heavy precipitation events United States, in the Midwest and Northeast 
in particular, have increased by 40 percent to 50 percent since 1900, 
and may increase as much as a further 50 percent over the next 50 
years.
    American society has grown as it has, in the places it has, with 
the infrastructure is has, in an adaptation to the environment and 
climate of its regions, and with a change to that climate, our 
infrastructure is often unsuited to the volume of runoff, temperature, 
water resources. Changing demographics and economics has resulted in 
increasing urbanization and a migration toward coasts globally, and the 
United States is no different. This puts a growing population, and its 
housing stock and economic production, in the way of potential changing 
weather patters, and likely increasing risk.
    With this increase in heat retention in the atmosphere, comes 
warmer oceans. Hurricanes, typhoons, and other cyclonic storms are 
fueled by warm water, and with warmer water, comes the potential for 
stronger, more intense coastal storms. And with warmer water further 
north and comes new storm risks in areas unaccustomed to frequent 
tropical storms. Shifting temperatures also result in shifting weather 
patterns in the in interior, potentially resulting in greater or less 
snowfall in areas, and changing spring flood risk.
    Warmer water also occupies greater volume than cooler water, and so 
in combination with melting polar ice, warmer oceans result in a rising 
sea level, raising the base level on which storm surge and tsunamis 
ride greatly increasing the potential inundation areas. Additionally, 
non-storm high tide flooding, or so-called ``nuisance flooding'' or 
``blue sky flooding'' is an increasing problem in American cities such 
as Charleston, South Carolina and Annapolis, Maryland. The 
Intergovernmental Panel on Climate Change's most conservative estimates 
for potential sea level rise, not even accounting for subsidence as 
we're seeing in the Chesapeake Bay and Norfolk areas, we can expect up 
to 2 feet of rise by the end of the century. Using updated data and 
methods, the National Climate Assessment predicts up to 4 feet. For 
context, here in Washington, that results in flooding of much of 
Anacostia Naval Station and Reagan National Airport on a normal day. If 
the storm surge experienced during Hurricane Isabel or Hurricane Hazel, 
it could mean well into Washington, DC, and flood all of Bolling Naval 
Air Station and Reagan National Airport, and all of Norfolk.
    There is an old saying regarding the difference between weather and 
climate that ``climate it what you expect, and weather is what you 
get'' and that's no more obvious than with the effect of a warming 
global climate on severe cold weather events in winter. Warmer air from 
the tropics disturbing the winter jet stream results in unusually cold 
arctic air being pulled down into the Midwest and mid-Atlantic, 
spawning so many of the comments dismissive of climate-change warnings 
such as ``if there's global warming, why is it so cold?'' These 
unusually cold weather events degrade first responders' capabilities 
and exhaust the resources of even otherwise well-prepared cities, 
putting millions of people at risk.
    Changing weather patterns affect wildfire risk as well. According 
to analysis of the National Research Council, we have experienced an 
extension of the western fire season of more that 2 months, and average 
size of wildfires has increased by 300 percent.
    And what does this mean for disaster impacts and FEMA and emergency 
management? Using the recent past for an expectation of future 
disasters has always been a challenging approach. The variability of 
natural events intersecting with our communities means that estimating 
the probability of disaster activity 1 year to the next is difficult. 
As with hurricane season prediction, a less-than-average year can still 
overwhelm the response and recovery system with a single storm coming 
ashore in the wrong place as we experienced with Hurricane Andrew. In 
the face of what we can objectively observe as a rapidly-changing 
disaster environment, we must ensure we take this very likely different 
future into account when planning.
    While many attempts to address the impacts of climate change have 
been made in recent years, the word ``climate'' does not occur once in 
the current 2018-2022 FEMA Strategic Plan. One may make the argument 
that the general philosophical approach to emergency management, that 
of ``all-hazards'' preparedness in which agencies prepare for any 
possible disaster rather that specific scenarios, and that a changing 
climate does not create new hazards, but simple exacerbates existing, 
and therefore attention to climate change is unnecessary. But that 
belies the truth: Staffing, budgeting, the number and scale of response 
teams, equipment, prepositioning, and even response planning 
assumptions, are all based on an assessment of what worked or didn't in 
previous disasters. And underestimating the severity, frequency, or 
possible location of disasters will result in organizations under-
resourced for the missions at hand.
    The strategic objectives of FEMA are laudable and will likely 
assist in preparing for the effects of climate change. For example, 
quadrupling the investment in mitigation is an ambitious and 
potentially valuable effort. However if this investment is made against 
a base flood elevation model that does not account for rising sea 
levels and increased rainfall intensity, it can likely lead to poor 
decisions and wasted money and effort. In 2015, President Obama issued 
E.O. 13690 which among other things, directed climate-informed decision 
making in relevant policy and established a Federal flood standard of 
an additional 2 feet of free board for non-critical actions and 3 feet 
for critical actions (such as the location of critical infrastructure). 
In August 2017, President Trump rescinded it.
    FEMA, the Federal Government, and the American emergency management 
community, is not likely to be right-sized or positioned for its 
potential disaster mission load, nor able to support smart investment 
in disaster mitigation and risk reduction without accounting for a 
likely future that is very different from its recent past. The 
international community recognized this with the Sendai Framework for 
Disaster Risk Reduction, to which the United States is a signatory, by 
calling on nations to ``prepare or review and periodically update 
disaster preparedness and contingency policies, plans, and programmes . 
. . considering climate change scenarios and their impact on disaster 
risk . . . ''. We should too.
    Thank you again for the opportunity to discuss the impact of 
climate change on disasters and the emergency management system in the 
United States. I look forward to your questions.

    Mr. Payne. Thank you, Mr. Manning.
    Ms. Kristie Trousdale is the deputy director for Children's 
Environmental Health Network.
    We would at this time hear your summary of your testimony.

    STATEMENT OF KRISTIE TROUSDALE, M PH, DEPUTY DIRECTOR, 
            CHILDREN'S ENVIRONMENTAL HEALTH NETWORK

    Ms. Trousdale. Thank you. Good afternoon, Chairman Payne, 
Ranking Member King, and distinguished Members of the 
subcommittee. It is an honor to testify before you today.
    Our children are our most valuable resources. They 
represent the future of our Nation. Yet 1 in 4 students in the 
United States has a chronic condition.
    Many of the childhood diseases and developmental 
disabilities that have been increasing over the past 40 years 
are environmentally mediated. Children are more vulnerable than 
adults to environmental hazards because of their unique 
physiological and behavioral traits and because their bodies 
are still developing. The youngest children are not aware of 
environmental risks, and they lack the knowledge, resources, 
and power to address them.
    Climate change heightens these risks, especially for 
children from communities of color and lower income. Droughts, 
wildfires, and extreme heat events are increasing in frequency 
and intensity; hurricanes and flooding are increasing in 
severity; and patterns of infectious disease are changing.
    Pediatricians in the United States report that they are 
already seeing the serious effects of climate change on 
children's health. We know that young children are among those 
most at risk from physical injuries and death resulting from 
wildfires and weather disasters. They are dependent on 
caregivers and may lack the knowledge, mobility, and 
communication skills to keep safe.
    Disasters can also cut off access to medical care, 
compounding the risks to injured children as well as to those 
with pre-existing conditions.
    Extreme weather disasters also affect children's mental 
health. Children exposed to Hurricane Katrina were 5 times as 
likely as pre-Katrina cohorts to have serious emotional issues 
such as post-traumatic stress disorder, anxiety, and 
depression. For many of the most vulnerable children, these 
issues persist and adversely affect the trajectory of their 
lives.
    Heat waves are projected to increase in frequency and 
intensity. Research has associated low birth weights, premature 
birth, and congenital heart defects with maternal exposure to 
extreme heat. Young children are also more vulnerable to heat-
related illness, and student athletes are at the greatest risk 
from exertional heat stroke.
    Climate change is degrading our air quality. Approximately 
10 percent of children aged 5 to 19 in the United States suffer 
from asthma. Increased levels of ground-level ozone, 
particulate matter, and pollen due to warmer temperatures, 
increased atmospheric carbon dioxide, and more frequent, 
intense, and long-lasting wildfires exacerbate asthma symptoms. 
Inhalation of particulate matter also affects unborn children 
by increasing the risk for premature births and lower birth 
weights.
    Infectious disease risks, such as foodborne and waterborne 
illnesses, increase with climate change. Access to safe 
drinking water is critical. Children drink more proportionately 
than adults, and because their immune systems are still 
developing, they can have more pronounced responses to 
infections.
    In addition, the changing climate can create conditions 
favorable for the spread of vector-borne diseases such as Lyme 
disease and Zika. In the United States, young boys are among 
those most at risk of contracting Lyme disease, and children 
born to women infected with the Zika virus are at risk for 
microcephaly, brain damage, and other birth defects.
    Over 13 million children in the United States live in food-
insecure households, and disasters exacerbate this as families 
face food spoilage, employment instability, and disrupted food 
systems.
    Also, many families rely on the free or reduced breakfasts 
and lunches offered through schools to help ensure their 
children are fed. When disasters strike, children, however, are 
unable to attend school, some of them for weeks.
    Indeed, schools and child care programs are important 
settings for the approximately 65 million American children who 
attend them and for their communities, yet there is no Federal 
oversight for the protection of their environmental health in 
these settings. Many facilities are old, contain hazardous 
building materials, and are in poor condition. Many are located 
on or near hazardous sites. These risks can be amplified in 
disasters, and many schools and child care providers lack the 
resources, capacity, and knowledge to address them.
    Climate change makes children's environmental health and 
issues of health disparities more visible than ever. I urge the 
subcommittee to consider children's unique vulnerabilities in 
all environmental decisions and policies within its 
jurisdiction, providing special consideration of those children 
who are most vulnerable. This is our moral imperative, and it 
is an investment in the stability and security of our country.
    Thank you for your leadership and for the opportunity to 
testify before this subcommittee.
    [The prepared statement of Ms. Trousdale follows:]
                Prepared Statement of Kristie Trousdale
                             April 9, 2019
    Good afternoon Chairman Payne, Ranking Member King, and 
distinguished Members of the subcommittee. It is an honor to appear 
before you today at this important hearing to discuss Homeland Security 
impacts related to climate change. I am Kristie Trousdale, deputy 
director of the Children's Environmental Health Network (CEHN).
    CEHN is a National nonpartisan nonprofit organization with the 
mission of protecting the developing child from environmental health 
hazards and promoting a healthy environment. We raise awareness of how 
natural and built environments affect children's health; support and 
stimulate preventive research; advocate for strong, child protective 
policy; and provide education and training to multiple audiences on 
children's environmental health and actionable steps to reduce 
children's exposures to environmental hazards. CEHN has been the 
National leading voice of children's environmental health for over 27 
years and leads or advises many of the critical National conversations 
on children's environmental health issues, including service to the 
National Institutes of Health and U.S. Centers for Disease Control and 
Prevention.
    Our children are our most valuable resources. They represent the 
future stability and security of our Nation. Yet approximately 75 
percent of young Americans between 17 and 24 would not qualify for 
military service, with nearly one-third ineligible due to health 
problems other than obesity, such as asthma, mental health issues, or 
Attention Deficit Hyperactivity Disorder.\1\ One in 4 students in the 
United States students has a chronic condition, 1 in 5 has learning and 
attention problems, and the number of children receiving Social 
Security Income for disability is almost 7 times larger than it was 30 
years ago.\2\ \3\ \4\ 
---------------------------------------------------------------------------
    \1\ Ready, Willing, and Unable to Serve. Mission: Readiness. 
Retrieved April 4, 2019 from http://cdn.missionreadiness.org/MR-Ready-
Willing-Unable.pdf.
    \2\ Centers for Disease Control and Prevention. Managing Chronic 
Health Conditions in Schools. Retrieved April 4, 2019 from https://
www.cdc.gov/healthyschools/chronicconditions.htm.
    \3\ National Center for Learning Disabilities. The State of 
Learning Disabilities: Understanding the 1 in 5. Retrieved April 4, 
2019 from https://www.ncld.org/the-state-of-learning-disabilities-
understanding-the-1-in-5.
    \4\ National Public Radio. Unfit for Work: The startling rise of 
disability in America. Retrieved April 4, 2019 from http://
apps.npr.org/unfit-for-work/.
---------------------------------------------------------------------------
    This is not just a problem for our country's military and defense 
needs. Over the past 3 decades there has been an unsettling rise in the 
number of Americans who are unfit for work. Currently over 13 million 
Americans receive a disability check from the Government, and most of 
them are unable to work.\5\ This represents a looming National security 
and stability crisis. Many of the childhood chronic diseases and 
developmental disabilities that have been increasing significantly over 
the past 40 years are environmentally mediated, and many are already 
increasing and intensifying due to our changing climate. Children from 
communities of lower income and communities of color face greater 
exposures to pollution and environmental hazards and suffer 
disproportionately from the resulting health effects.\6\ \7\
---------------------------------------------------------------------------
    \5\ Social Security Administration. Monthly Statistical Snapshot. 
Retrieved April 4, 2019 from https://www.ssa.gov/policy/docs/
quickfacts/stat_snapshot/.
    \6\ Southeast Pediatric Environmental Health Specialty Unit. 
Monograph. Break the Cycle of Environmental Health Disparities in 
Vulnerable Children. Retrieved April 4, 2019 from https://
www.researchgate.net/publication/
51970363_Break_the_Cycle_of_environmental_health_- 
disparities_in_vulnerable_children.
    \7\ Children's Environmental Health Network. Children and health 
disparities. Retrieved April 4, 2019 from https://cehn.org/wp-content/
uploads/2015/11/EJ-Factsheet_2018_FINAL.pdf.
---------------------------------------------------------------------------
    Over 88 percent of global disease associated with climate change 
impacts children--especially the youngest and most vulnerable 
children.\8\ However, their unique needs continue to be under-
prioritized in conversations and actions around mitigation, 
preparedness, response. I urge that the subcommittee use its role to 
ensure that children's health and development are placed at the center 
of decision making for policies within its jurisdiction related to 
climate change.
---------------------------------------------------------------------------
    \8\ Zhang Y, Bi P, Hiller JE. Climate change and disability-
adjusted life years. J Environ Health. 2007; 70:32-36.
---------------------------------------------------------------------------
    There is solid consensus in the scientific community that children 
are more vulnerable than adults to environmental hazards because of 
their unique physiological and behavioral traits. A child's patterns of 
exposure differ than that of an adult. For example, many harmful air 
pollutants are emitted or exist low to the ground, within a young 
child's breathing zone, such as motor vehicle exhaust, mercury vapor, 
radon, and pesticides.\9\ Infants and toddlers also crawl and play on 
the ground and explore the world orally which exposes them, via 
ingestion, to more hazards.\9\ Proportionately, children eat more, 
drink more, and breathe more than adults, and their skin surface area 
to volume ratio is greater as well, increasing risk for dermal 
absorption of harmful compounds.\9\ Their bodies also differ in how 
they absorb, detoxify, and excrete substances.
    Additionally, children are more vulnerable to harm from these 
exposures because their bodies are still developing. There are critical 
windows of development for organs and organ systems, during which, if 
disrupted by a harmful exposure or experience, adverse and lasting 
effects can occur.\9\ Early exposures have the potential for not only 
immediate harmful effects on children's health and development, but can 
set up the system for developing disease later in life as well.\9\ 
Indeed, children have many years of life ahead of them within which to 
develop symptoms of diseases with long latency periods that may have 
been triggered by early exposures, such as cancer or Parkinson's 
disease. Older children have agency, and more and more young people are 
speaking out on their own behalf and mobilizing action with regard to 
climate change's impacts on their generation. However, the youngest of 
children are not aware of environmental risks and climate change, and 
they lack the knowledge, mobility, funds, and power to address them. 
Children are dependent on adults to protect them, and it is our moral 
imperative to do so.
---------------------------------------------------------------------------
    \9\ Bearer, CF. Environmental health hazards: How children are 
different from adults. Future Child. 1995; 5(2):11-26.
---------------------------------------------------------------------------
    Climate change is increasing the frequency and severity of 
droughts, wildfires, and extreme heat events. It is increasing the 
severity of superstorms and flooding and affecting the incidence and 
geographic distribution of infectious diseases. These effects intensify 
existing environmental health risks to children.\10\ In addition, 
children are more likely to live in high-risk areas such as 
floodplains, and they are more likely to live in poverty.\11\ 
Pediatricians in the United States report that they are already seeing 
the serious effects of climate change on children's health.\12\ Thus, 
mitigation of climate change via significant reductions in greenhouse 
gas emissions is of utmost importance in child health protection.
---------------------------------------------------------------------------
    \10\ Stanberry LR, Thomson MC, James W (2018) Prioritizing the 
needs of children in a changing climate. PLoS Med 15(7): e1002627. 
https://doi.org/10.1371/journal.pmed.1002627.
    \11\ Fothergill, A. (2017, July 27). Children, Youth, and Disaster. 
Oxford Research Encyclopedia of Natural Hazard Science. Ed. Retrieved 
31 Mar. 2019, from http://oxfordre.com/naturalhazardscience/view/
10.1093/acrefore/9780199389407.001.0001/acrefore-9780199389- 407-e-23.
    \12\ The Medical Society Consortium on Climate and Health. Accessed 
on April 1, 2019 at https://medsocietiesforclimatehealth.org/about/.
---------------------------------------------------------------------------
    In addition, children remain an afterthought in preparedness, 
response, and recovery measures during natural disasters. In 2010, the 
National Commission on Children and Disasters released an assessment of 
the gaps in Federal planning that lead to risks to children in times of 
disasters. The Commission developed 81 recommendations and sub-
recommendations to prioritize the health and safety of children in 
preparedness, response, and recovery measures.\13\ However, as of 2015, 
79 percent of these recommendations remained unfulfilled.\14\
---------------------------------------------------------------------------
    \13\ National Commission on Children and Disasters. 2010 Report to 
the President and Congress. Retrieved April 2, 2019 from https://
archive.ahrq.gov/prep/nccdreport/nccdreport.pdf.
    \14\ 2015 National Report Card on Protecting Children in Disasters. 
Save the Children. Retrieved April 2, 2019 from https://
www.savethechildren.org/content/dam/usa/reports/emergency-prep/
disaster-report-2015.pdf.
---------------------------------------------------------------------------
    The following climate change-related environmental effects are 
among those of concern regarding children.
                          heat-related illness
    Children and pregnant women are among those most at risk from 
extreme heat events and the frequency and intensity of these events are 
projected to increase in the coming decades due to climate change. 
Studies have associated low birth weight, premature birth, and certain 
congenital heart defects with maternal exposure to extreme heat during 
critical windows of development.\15\ \16\ \17\ Young children are also 
less able than adults to regulate their body temperature, they tend to 
dehydrate more quickly, and they are more likely to be physically 
active outdoors. Student athletes, especially youth football players 
and long-distance runners, are at risk from exertional heat stroke.\18\ 
Over 9,000 U.S. high school athletes are treated for heat illness each 
year, and in the past two decades, deaths of football players due to 
heat stroke nearly doubled.\19\ \20\
---------------------------------------------------------------------------
    \15\ S. Ha, D. Liu, Y. Zhu, S.S. Kim, S. Sherman, P. Mendola. 
Ambient temperature and early delivery of singleton pregnancies. 
Environ. Health Perspect., 125 (2017), pp. 453-459.
    \16\ Ha S, et al. Ambient temperature and early delivery of 
singleton pregnancies. Environ Health Perspect. 2017;125(3):453. doi: 
10.1289/EHP97.
    \17\ Zhang, W., et al. Projected Changes in Maternal Heat Exposure 
During Early Pregnancy and the Associated Congenital Heart Defect 
Burden in the United States. Journal of the American Heart Association. 
2019; 8:(3).
    \18\ Beasley, M. Athletes and heat stroke: Prevention and 
treatment. Boston Children's Hospital Notes. Retrieved April 1, 2019 
from https://notes.childrenshospital.org/protecting-athletes-heat-
exertional-heat-stroke-prevention-sports-medicine-specialist/.
    \19\ Kerr, ZY, et al. Epidemiology of exertional heat illness among 
U.S. high school athletes. Am J Prev Med. 2013 Jan;44(1):8-14.
    \20\ Annual Survey of Football Injury Research: 1931--2017. 
National Center for Catastrophic Sport Injury Research. Retrieved April 
4, 2019 at https://nccsir.unc.edu/files/2013/10/Annual-Football-2017-
Fatalities-FINAL.pdf.
---------------------------------------------------------------------------
                              air quality
    Approximately 10 percent of children aged 5-19 in the United States 
suffer from asthma.\21\ According to the Centers for Disease Control 
and Prevention, 1 in 6 children with asthma ends up in the emergency 
department and about 1 in 20 is hospitalized each year.\22\ Asthma is 
the leading cause of school absenteeism, accounting for millions of 
missed school days each year.\23\ The warmer temperatures brought about 
by climate change lead to increased concentrations of smog/ground level 
ozone, a major contributor to asthma exacerbation that is also known to 
decrease lung functioning in young children and at elevated levels to 
lead to the development of asthma in children who play outdoor 
sports.\24\
---------------------------------------------------------------------------
    \21\ Centers for Disease Control and Prevention. National Current 
Asthma*[sic] Prevalence (2016) Retrieved April 1, 2019 from https://
www.cdc.gov/asthma/most_recent_data.htm.
    \22\ Centers for Disease Control and Prevention. Vital Signs: 
Asthma in Children--United States, 2001-2016. Retrieved April 1, 2019 
from https://www.cdc.gov/mmwr/volumes/67/wr/
mm6705e1.htm?s_cid=mm6705e1_e.
    \23\ Hsu, J., Qin, X., Beavers, S. F., & Mirabelli, M. C. (2016). 
Asthma-Related School Absenteeism, Morbidity, and Modifiable Factors. 
American journal of preventive medicine, 51(1), 23-32. doi:10.1016/
j.amepre.2015.12.012.
    \24\ McConnell, R., Berhane, K., Gilliland, F., London, S.J., 
Islam, T., Gauderman, W.J. et al. Asthma in exercising children exposed 
to ozone: a cohort study. Lancet. 2002; 359: 386-391.
---------------------------------------------------------------------------
    Allergic response to pollen is also one of the most common causes 
of asthma exacerbations in children, and warming temperatures extend 
the length of pollen-producing plants' growing season and the duration 
of the allergy season. In addition, increased levels of atmospheric 
carbon dioxide results in increased production of pollen from plants 
such as ragweed, and increased potency of the pollen produced.
    Inhalation of particulate matter also exacerbates asthma and 
children's other respiratory illnesses. This particle pollution can 
also affect unborn children by increasing the risk for premature births 
and for lower birth weights. Particulate matter is a mixture of solid 
particles and liquid droplets found in the air. The particles exist in 
many different sizes and can contain hundreds of different chemicals. 
Those particles that are under 10 micrometers in diameter (PM10), and 
especially those under 2.5 micrometers (PM2.5) in diameter, can lodge 
deep within our lungs and pose the greatest health risks. Over 10,000 
tons of PM2.5 were released during the burning of the northern 
California wildfires in 2017.\25\ In the fall of 2018 California school 
closures due to wildfires kept over 1 million children at home.\26\ The 
frequency and intensity of wildfires is projected to increase in the 
coming decades.
---------------------------------------------------------------------------
    \25\ Week of wildfires polluting air as much as year of cars. CNN. 
Retrieved from https://www.cnn.com/2017/10/13/health/california-fires-
air-pollution-trnd/index.html.
    \26\ Calmatters. School closures from California wildfires this 
week have kept more than a million kids home. Retrieved April 4, 2019 
from https://calmatters.org/articles/school-closures-california-
wildfires-1-million-students/.
---------------------------------------------------------------------------
                          infectious diseases
    Increasing temperatures and weather disasters cause increased food- 
and water-borne illnesses, especially due to flooding, structural 
damage, and power loss. For example, there were increased cases of 
leptospirosis, a relatively rare bacterial infection in humans, in 
Puerto Rico post Hurricane Maria, due to contaminated water.\27\ 
Because children's immune systems are still developing, they can have 
more pronounced responses to infections.\28\ Severe disasters can also 
hamper adequate health care service, amplifying the spread of 
infectious diseases such as tuberculosis or influenza.
---------------------------------------------------------------------------
    \27\ Henry J Kaiser Family Foundation. Public Health in Puerto Rico 
after Hurricane Maria. Retrieved April 1, 2019 from https://
www.kff.org/other/issue-brief/public-health-in-puerto-rico-after-
hurricane-maria/.
    \28\ American Academy of Pediatrics. Outbreaks, Epidemics, and 
Other Infectious Disease Emergencies. Retrieved April 1, 2019 from 
https://www.aap.org/en-us/advocacy-and-policy/aap-health-initiatives/
Children-and-Disasters/Documents/MIDCCSoutbreaks.pdf.
---------------------------------------------------------------------------
    Altered patterns of rainfall can cause the expansion of breeding 
grounds and range, and increased populations for mosquitos, ticks, and 
other disease vectors for illnesses such as Lyme disease, dengue, and 
Zika. Children tend to spend more time outdoors than adults, and in the 
United States, young boys are among those most at risk from contracting 
Lyme disease.\29\ Puerto Rico, which is hardest hit by the Zika virus 
in the United States, has seen an increase in the Aedes mosquito 
breeding grounds since Hurricane Maria, and research indicates that the 
number of pregnant women with Zika is now near that of levels in 2016 
during the height of the problem.\30\ Children born to women infected 
with the virus are at risk of developing congenital Zika syndrome, 
which includes symptoms such as microcephaly, brain damage, and other 
birth defects.
---------------------------------------------------------------------------
    \29\ Centers for Disease Control and Prevention. Lyme Disease 
Charts and Figures: Historical Data. Retrieved March 31, 2019 from 
https://www.cdc.gov/lyme/stats/graphs.html.
    \30\ PBS. What's the truth about Zika virus in post-hurricane 
Puerto Rico? Retrieved April 2, 2019 from https://www.pbs.org/newshour/
show/whats-the-truth-about-zika-virus-in-post-hurricane-puerto-rico.
---------------------------------------------------------------------------
             injuries and death from extreme weather events
    Young children are also among those most at risk from physical 
injuries and death resulting from wildfires and severe storms. Settings 
where children spend their time, such as school and child care 
facilities, may be structurally unsound, or be otherwise unprepared for 
disasters. Young children's mobility issues place them at higher risk, 
as some need to be carried and others guided via handholding. Children 
are among the most likely to drown in floods,\31\ and floodwaters can 
pose electrical hazards, mix with and spread sewage and toxic 
chemicals, hide unsafe conditions such as broken glass, and pose risks 
of hypothermia. Compounding these risks is the fact that access to 
medical care is jeopardized in extreme weather events, due to power 
loss or facility damage. Children who are injured, or those with 
chronic health conditions or special needs may not be able to receive 
critical medical attention.
---------------------------------------------------------------------------
    \31\ The World Health Organization. Drowning. Retrieved April 1, 
2019 from https://www.who.int/news-room/fact-sheets/detail/drowning.
---------------------------------------------------------------------------
                             food security
    As of 2016, over 13 million children in the United States face 
hunger. Disasters exacerbate food insecurity for the poor, as 
exemplified in under-resourced communities in South Florida after 
Hurricane Irma. Families faced food spoilage and unpaid time off, and 
most grocery stores only accepted cash and could not process 
Supplemental Nutrition Assistance Program debit-like cards due to power 
outages.\32\ In Puerto Rico, 19.7 percent of families had difficulties 
securing meals for their children daily after Hurricane Maria.\33\
---------------------------------------------------------------------------
    \32\ WLRN. After Hurricane Irma, Food Insecurity In Miami-Dade's 
Poorest Communities. Retrieved April 2, 2019 from https://www.wlrn.org/
post/after-hurricane-irma-food-insecurity-miami-dades-poorest-
communities.
    \33\ The Youth Development Institute of Puerto Rico .The impact of 
Hurricane Maria on children in Puerto Rico. Retrieved April 2, 2019 
from https://drive.google.com/file/d/0B--
GGLGhvE3QueDJYWTJNTThCTFE5YkExbnllQ3VOcEtKeWFF/view.
---------------------------------------------------------------------------
    Many families rely on the free or reduced breakfasts and lunches 
offered through schools to help ensure their children are fed. However, 
approximately 8.5 million children were unable to attend school, some 
of them for weeks, due to Hurricanes Harvey and Irma.\34\ After 
Hurricane Maria, students aged 5-17 in Puerto Rico missed an average of 
78 days of school, and those children in preschool missed 92 days of 
early learning and care in their programs.\33\
---------------------------------------------------------------------------
    \34\ USA Today. Hurricanes Harvey and Irma kept 1 in 6 students in 
the USA out of school. Retrieved April 2, 2019 from https://
www.usatoday.com/story/news/2017/09/15/hurricanes-drove-millions-
students-school/668156001/.
---------------------------------------------------------------------------
    Extreme heat, drought, floods, and rising sea levels threaten 
agricultural yield, fisheries, and meat production, as well, thus 
affecting food prices and access for children and pregnant women in 
poverty across the globe.\35\ In addition to a diminishing supply of 
food, the quality of food is also at risk. Rising atmospheric carbon 
dioxide, while producing bigger crops, reduces the nutritional value of 
food crops. Staple crops, including rice, legumes, and wheat show a 
loss of protein and micronutrients, including essential elements such 
as iron and zinc, which are critical to children's health.\36\ Children 
already at risk for malnutrition will face increased food insecurity 
and resultant health and development problems.
---------------------------------------------------------------------------
    \35\ Columbia University. How Climate Change Will Alter Our Food. 
Retrieved April 2, 2019 from https://blogs.ei.columbia.edu/2018/07/25/
climate-change-food-agriculture/.
    \36\ Meyers, SS., et al. Increasing CO<INF>2</INF> threatens human 
nutrition. Nature. 2014; 510: 139-142.
---------------------------------------------------------------------------
                     access to safe drinking water
    Flooding, structural damage, and power loss can lead to failed 
drinking water systems and thus contaminated drinking water. Post-
Hurricane Harvey, 166 water systems were under boil-water orders and 
another 50 water systems were shut down completely.\37\ One week after 
Hurricane Maria 55 percent of Puerto Ricans lacked clean drinking 
water,\38\ and 1 month after the disaster approximately 1 million were 
without reliable drinking water.\39\ Heavy storms and flooding can also 
contaminate private wells.
---------------------------------------------------------------------------
    \37\ U.S. Environmental Protection Agency. Status of Water Systems 
in Areas Affected by Harvey. News Release. Retrieved March 31, 2019 
from https://www.epa.gov/newsreleases/status-water-systems-areas-
affected-harvey.
    \38\ U.S. Department of Defense. DoD Accelerates Hurricane Relief, 
Response Efforts in Puerto Rico. DoD News. Retrieved March 31, 2019 
from https://dod.defense.gov/News/Article/Article/1330501/dod-
accelerates-hurricane-relief-response-efforts-in-puerto-rico/.
    \39\ Sutter, JC. CNN. About 1 million Americans without running 
water. 3 million without power. This is life 1 month after Hurricane 
Maria. Retrieved March 31, 2019 from https://www.cnn.com/2017/10/18/
health/puerto-rico-one-month-without-water/index.html.
---------------------------------------------------------------------------
                             mental health
    Children exposed to Hurricane Katrina were five times as likely as 
pre-Katrina cohorts to have serious emotional issues, such as post-
traumatic stress disorder, anxiety, and depression.\40\ According to 
the Youth Development Institute of Puerto Rico, a reported 44 percent 
of children struggled with emotional and behavioral problems after 
Hurricane Maria, with 23 percent specifying struggles with anxiety.\33\ 
In addition to immediate fears of safety in a crisis situation, 
children may experience a loss of home and belongings, may have to 
leave their neighborhood, and may be separated from family, caretakers, 
communities, and friends. Disasters may also destroy community 
resources that are integral to their sound development, such as 
schools, hospitals, and places of worship. Mental health implications 
are concerning especially for those children who are already at higher 
risk, such as those living in under-resourced areas.
---------------------------------------------------------------------------
    \40\ Abramson, D.M., Park, Y.S., Stehling-Ariza, T., & Redlener, I. 
(2010). Children as bellwethers of recovery: Dysfunctional systems and 
the effects of parents, households, and neighborhoods on serious 
emotional disturbance in children after Hurricane Katrina. Disaster 
Medicine and Public Health Preparedness, 4(S1), S17-S27.
---------------------------------------------------------------------------
                  important settings outside the home
    Approximately 65 million children attend schools and child care in 
the United States, yet many schools and child care programs in the 
United States do not comprehensively evaluate nor address matters 
pertaining to children's environmental health.\41\ \42\ There is no 
Federal oversight for the protection of children's environmental health 
in these learning and care settings, despite the legal mandate that 
children spend a significant portion of their time in school 
facilities. Many schools and child care facilities in this country are 
old, in poor condition, and/or are located on or near hazards sites, 
and already present environmental health risks which can be exacerbated 
in disasters.\43\ \44\ In addition, many schools and child care 
programs are unprepared to safely manage these crises.
---------------------------------------------------------------------------
    \41\ Paulson, J. & Barnett, C. Who's in Charge of Children's 
Environmental Health at School? New Solutions. 2016; 20 (1): 3-23.
    \42\ Seltenrich, N. Environmental exposures in the context of child 
care. Environ Health Perspect. 2013 May; 121(5): a160-a165.
    \43\ American Society of Civil Engineers. 2017 Infrastructure 
Report Card: Schools. Retrieved April 4, 2019 from https://
www.infrastructurereportcard.org/wp-content/uploads/2017/01/Schools-
Final.pdf.
    \44\ Center for Effective Government. Living in the shadow of 
danger: Poverty, race, and unequal chemical facility hazards. Retrieved 
April 4, 2019 from https://www.foreffectivegov.org/sites/default/files/
shadow-of-danger-highrespdf.pdf.
---------------------------------------------------------------------------
    The National Commission on Children and Disasters' 2010 Report to 
the President and Congress outlined recommendations specific to both 
settings, and the Federal Emergency Management Agency (FEMA) has 
developed a variety of tools as part of its Multi-hazard Emergency 
Planning for Schools toolkit. Yet as of 2015 18 States and the District 
of Columbia had not adopted minimum emergency planning standards at 
schools and child care.\14\ While many schools and child care programs 
have developed emergency plans, many plans do not meet National 
guidelines and the implementation of plans are hampered due to funding, 
training, capacity, and communications issues. In some States, school 
and child care emergency plans are not mandated, and not all regulated 
child care providers and/or schools are subject to the relevant 
standards.
    In addition, a great deal of focus centers around school or child 
care evacuation planning and family reunification, and there is often 
significant pressure to reopen schools as quickly as possible to 
provide education and other key community services as well as stability 
for children and their families after a disaster. Yet many health 
problems from disasters arise during the recovery period. Mandatory 
standards, protocols, and oversight for reopening schools and child 
care facilities safely are needed to prevent unnecessary harmful 
exposures to children, such as the serious mold and pest issues 
reported at Brewster Middle School at Camp Lejeune when it reopened 
after Hurricane Florence.\45\
---------------------------------------------------------------------------
    \45\ Military Parents Outraged After Mold Found in Base School 
Damaged by Florence. Military.com. Retrieved April 2, 2019 from https:/
/www.military.com/daily news/2018/09/25/military-parents-outraged-
after-mold-found-base-school-damaged-florence.html.
---------------------------------------------------------------------------
                     conclusion and recommendations
    Climate change makes children's environmental health issues more 
visible than ever. It is a threat multiplier and it exacerbates 
inequalities; children from communities of color and communities of 
lower income bear the brunt of climate change effects.
    I urge the subcommittee to understand and recognize that:
  <bullet> the environments where children live, learn, work, and play, 
        have direct and significant impacts on their health;
  <bullet> children, especially those from communities of color and 
        communities of lower income, including children on Tribal 
        lands, are particularly vulnerable to environmental hazards;
  <bullet> children are our future; and
  <bullet> we have a moral obligation to protect children.
    I ask that the subcommittee:
  <bullet> consider children's health in all environmental decisions 
        and policies; and
    <bullet> provide special consideration and prioritization of those 
            children who are most vulnerable--those from communities of 
            color, from communities of lower income.
    <bullet> Apply the pediatric environmental health lens to climate 
            change legislation.
    <bullet> Support continued measures to aggressively mitigate the 
            changing climate.
    <bullet> Support measures to intentionally address children's 
            unique risks and needs in preparedness, response, and 
            recovery.
  <bullet> support all Federal, State, and Tribal agencies and programs 
        that protect children's health.
    <bullet> Ensure capacity, training, and funding needs--for improved 
            coordination across agencies, sectors, and multiple levels 
            of government in matters of preparedness, response, and 
            recovery measures.
    Your support is critically needed for key Federal agencies such as 
the U.S. Environmental Protection Agency, especially the Office of 
Children's Health Protection, the Centers for Disease Control and 
Prevention, especially the National Center for Environmental Health, 
and the Agency for Toxic Substances and Disease Registry. These 
agencies conduct research, set guidelines, and develop surveillance and 
intervention programs to address children's environmental health 
issues. They also help to fund critical efforts such as the Children's 
Environmental Health and Disease Prevention Research Centers and the 
Pediatric Environmental Health Specialty Units--programs which have 
developed strong community ties.
    I commend the subcommittee for holding this hearing today and for 
inviting CEHN to provide the children's health perspective to the 
conversation on climate change. Children, not profits, need to be 
placed at the center of decision making to reduce the risk of disease 
or disability, and to assure that our children will have long, healthy, 
and productive lives. This is our shared moral imperative. Protecting 
the health and development of our most precious resources will also 
safeguard the stability and security of our country for generations to 
come.
    Thank you for the opportunity to testify on these critical issues 
and thank you for your leadership.

    Mr. Payne. Thank you, Ms. Trousdale.
    Let's see. Now we are going to recognize Chief Eggleston to 
summarize his statement for 5 minutes.

   STATEMENT OF DAN EGGLESTON, EFO, CFO, CMO, PRESIDENT AND 
CHAIRMAN OF THE BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Eggleston. Good afternoon, Chairman Payne, Ranking 
Member King, and distinguished Members of the subcommittee.
    My name is Dan Eggleston, and I am the chief of Albemarle 
County, Virginia, Department of Fire Rescue. I am also the 
president and chairman of the board of the International 
Association of Fire Chiefs, who I am representing today. Thank 
you for the opportunity to testify at today's hearing.
    No matter if it is a hurricane, tornado, flood, or wild 
land fire, America's local fire departments are the first to 
arrive on scene and often the last to leave. For the critical 
first 24 hours, local fire departments must provide emergency 
response in treacherous conditions without expectations of 
immediate State or Federal assistance. In short, local fire 
departments, large and small, are all-hazard responders, 
responsible for meeting these great challenges.
    The cost and intensity of climate-related disasters are 
increasing. According to NOAA, the United States has witnessed 
14 or more weather-related disasters costing more than $1 
billion each year for the past 3 years. In addition, we have 
seen the number of acres burned by wild land fires increase by 
two-thirds over the past 10 years to 8.8 million acres.
    In addition to property loss, these disasters are causing 
tragic losses. According to NOAA, the 14 weather-related 
disasters in 2018 costing more than $1 billion in damages 
caused 247 deaths. According to NFPA, 44 firefighters were 
fatally injured between 2007 and 2016 as a result of wild land 
fires. An additional 1,335 ground injuries were caused by wild 
land fires between 2011 and 2015.
    Congress should take the following three steps to help 
local communities and fire departments prepare for the 
increased number of climate-related disasters.
    No. 1, continue to promote mitigation efforts.
    The IAFC thanks Congress for passing, and President Trump 
for signing, the Disaster Recovery Reform Act. This legislation 
promoted both pre-disaster and post-disaster mitigation 
activities.
    It also focused on the importance of State and local 
adoption of model commercial and residential building codes. 
The NIBS released a study earlier this year demonstrating that 
the adoption of the model building codes generates a National 
benefit of $11 for $1 invested.
    Furthermore, the adoption of wild land fire codes provides 
a benefit of $4 for every $1 invested. We urge Congress to 
prioritize the use of Federal funds for building and rebuilding 
structures in communities that meet this consensus-based code.
    No. 2, support community preparedness programs.
    The IAFC recommends that communities assess the risk of 
floods, wind storms, and wild land fires. In order to prepare 
for these disasters, the whole community must be engaged, from 
Federal and State officials to local homeowners.
    Programs like the IAFC's Ready, Set, Go! program help local 
homeowners take steps to make their homes fire-safe, prepare 
for the event of a wild land fire, and evacuate quickly when 
fire threatens.
    We have seen examples, including in the State of New 
Jersey, where planning for wild land fires can be utilized to 
help communities evacuate from other natural disasters. We ask 
the Congress to continue to fund community preparedness 
programs at FEMA and the U.S. Forest Service.
    Finally, No. 3, support programs that prepare local fire 
departments to respond to climate-related disasters.
    A well-prepared fire department is best prepared to handle 
a major disaster. Leadership programs at the U.S. Fire 
Administration and National Fire Academy help fire service 
leaders identify and prepare for all-hazard risk to their 
communities. As disasters increase in intensity, they draw in 
resources from around the Nation through EMAC and other mutual-
aid agreements.
    It is important that local fire departments have the 
necessary training, equipment, and staffing to respond to local 
and regional and National disasters. The FIRE and SAFER grant 
programs provide matching grants to local fire departments to 
meet these needs. The U.S. Forest Service's State and volunteer 
fire assistance programs provide links between Federal and 
State authorities and local fire departments to prepare for 
wild land fires. When disasters strike, the Nation's urban 
search-and-rescue teams, hosted by local fire departments, 
provide life-saving capabilities.
    We ask that Congress reject proposed cuts to these programs 
and adequately fund them. We also ask Congress to support 
Nation-wide mutual-aid systems like EMAC and NMAS.
    As the risk from climate-related events increases, the 
Nation must take steps to mitigate, respond, and recover from 
them. The Federal Government is working with partners like the 
IAFC to prepare for these events. We ask that Congress continue 
to support these efforts to keep Americans and our firefighters 
safe.
    Thank you again, and I look forward to answering any 
questions that you may have.
    [The prepared statement of Chief Eggleston follows:]
                  Prepared Statement of Dan Eggleston
                             April 9, 2019
    Good morning, Chairman Payne, Ranking Member King, and 
distinguished Members of the subcommittee. My name is Dan Eggleston, 
and I am president and chairman of the board of the International 
Association of Fire Chiefs (IAFC), and fire chief of the Albemarle 
County, Virginia, department of fire rescue. Thank you for the 
opportunity to participate in the committee's assessment of the 
homeland security impacts of a changing climate.
    The IAFC represents the leadership of over 1.1 million firefighters 
and emergency responders. IAFC members are the world's leading experts 
in firefighting, emergency medical services, terrorism response, 
hazardous materials (hazmat) incidents, wildland fire suppression, 
natural disasters, search and rescue, and public-safety policy. Since 
1873, the IAFC has provided a forum for its members to exchange ideas, 
develop best practices, participate in executive training, and discover 
diverse products and services available to first responders.
                the fire and emergency service community
    America's fire and emergency services are the only organized group 
of individuals that is locally situated, staffed, trained, and equipped 
to respond to all types of emergencies. There are approximately 1.1 
million men and women in the fire and emergency service--approximately 
300,000 career firefighters and 800,000 volunteer firefighters--serving 
in over 30,000 fire departments around the Nation. They are trained to 
respond to all hazards ranging from earthquakes, hurricanes, tornadoes, 
and floods to acts of terrorism, hazmat incidents, technical rescues, 
fires, and medical emergencies.
    The fire service protects America's critical infrastructure--the 
electrical grid, interstate highways, railroads, pipelines, petroleum, 
and chemical facilities--and is, in fact, even considered part of the 
critical infrastructure. The fire service protects Federal buildings, 
including military installations and interstate commerce. No passenger 
airliner takes off from a runway or train leaves a station that is not 
protected by a fire department.
                     the nation's changing climate
    As the Nation's climate changes, it creates new challenges for the 
Nation's fire and emergency service. No matter if it is a hurricane, a 
tornado, flooding, or a wildland fire, America's local fire departments 
are the first to arrive on scene and the last to leave. They must 
provide emergency response and medical aid to the public despite the 
outside conditions. In many ways, the Nation's changing climate is 
helping to transform the local fire department into an all-hazards 
response force.
    It is important to recognize the effects of the Nation's changing 
climate. According to the National Oceanic and Atmospheric 
Administration, the United States averaged 6.2 weather-related disaster 
events that each cost $1 billion or more each year from 1980 to 
2018.\1\ In 2016, our Nation had 15 such events, 16 such events in 
2017, and 14 such events in 2018.
---------------------------------------------------------------------------
    \1\ NOAA, National Centers for Environmental Information (NCEI), 
U.S. Billion-Dollar Weather and Climate Disorders (2018), https://
www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    In addition, we have seen an increase in the Nation's wildland fire 
problem. In 2018, the National Interagency Fire Center reported 
approximately 58,000 fires, which burned approximately 8.8 million 
acres. In comparison, there were almost 79,000 fires in 2008, which 
burned approximately 5.3 million acres. So, even as the number of 
wildland fires are reduced, their intensity increases.\2\
---------------------------------------------------------------------------
    \2\ National Interagency Fire Center, Federal Firefighting Costs 
(Suppression Only), (https://www.nifc.gov/fireInfo/fireInfo_documents/
SuppCosts.pdf).
---------------------------------------------------------------------------
    There has been an increase in Federal spending on disasters. For 
fiscal year 2018, Congress appropriated approximately $50 billion. In 
contrast, Congress only appropriated approximately $18.5 billion for 
fiscal year 2013, which includes the aftermath of Hurricane Sandy.\3\ 
These costs are equally clear in the wildland fire arena, where the 
Federal Government spent a record $3.1 billion on wildland fire 
suppression costs in 2018. From 2009 to 2013, the Federal Government 
spent an average of $1.35 billion on wildland fire suppression costs. 
By comparison, from 2014 to 2018, the Federal Government spent an 
average of $2.34 billion on wildland fire suppression, an increase of 
42 percent.\4\
---------------------------------------------------------------------------
    \3\ Congressional Research Service, The Disaster Relief Fund: 
Overview and Issues, February 1, 2019.
    \4\ National Interagency Fire Center, Federal Firefighting Costs 
(Suppression Only), (https://www.nifc.gov/fireInfo/fireInfo_documents/
SuppCosts.pdf).
---------------------------------------------------------------------------
    These disasters have real-life costs too. The United States has had 
241 weather and climate disasters since 1980 where overall damages 
reached or exceeded $1 billion. The total cost of these 241 incidents 
is more than $1.6 trillion. In 2018, the 14 weather or climate events 
costing more than $1 billion in damages also caused 247 deaths.\5\ 
According to the National Fire Protection Association (NFPA), a total 
of 44 local firefighters were fatally injured between 2007 and 2016 as 
a result of grass, brush, or forest fires or prescribed fires. Between 
2011 and 2015, the NFPA reported that grass and forest fires caused an 
average of 1,330 fireground injuries to local firefighters.\6\
---------------------------------------------------------------------------
    \5\ NOAA, National Centers for Environmental Information (NCEI), 
U.S. Billion-Dollar Weather and Climate Disorders (2018), https://
www.ncdc.noaa.gov/billions/.
    \6\ Marty Ahrens, Brush, Grass, and Forest Fires, National Fire 
Protection Association, September 2018, p. 7.
---------------------------------------------------------------------------
    The Nation needs to act and prevent the loss of life and property 
in a dangerous and changing climate. The International Association of 
Fire Chiefs recommends that the Nation take common-sense steps to 
address this threat. We encourage Congress to continue to take steps to 
mitigate the threats of climate-related disasters. We recommend that 
Congress fund programs that help communities prepare for climate-
related events, like hurricanes, tornadoes, floods, and wildland fires. 
We also ask that Congress support Federal programs and initiatives that 
will help fire departments prepare for the growing number of climate-
related disasters.
                      the importance of mitigation
    The IAFC thanks Congress for its recent focus on using mitigation 
to drive down the cost of disasters. States and local communities 
should take steps to mitigate the effects of major climate-related 
disasters. These efforts can include acquiring and demolishing flood-
prone buildings; adding hurricane-safe shutters and tornado-safe rooms; 
and replacing roofs and creating defensible space around buildings to 
prevent wildland fires.
    The IAFC recommends that States and localities adopt current model 
building codes, including the International Building Code and the 
International Residential Code. The National Institute of Building 
Sciences released a study in January demonstrating that adoption of 
model building codes generates a National benefit of $11 for every $1 
invested. Furthermore, adoption of wildland fire codes provided a 
benefit of $4 for every $1 invested.
    The adoption of current building and fire codes has been proven to 
prevent the tragic loss caused by climate-driven events. The Insurance 
Institute for Business and Home Safety (IBHS) found that the adoption 
of high-wind provisions in residential buildings reduced damage to 
houses in Florida, After Hurricane Charley in 2004, the claim frequency 
for houses built after 1996 (when Charlotte County, Florida, enacted 
high-wind standards) was reduced by 60 percent and the claims were 42 
percent less severe when a loss occurred.\7\
---------------------------------------------------------------------------
    \7\ ``Hurricane Charley: Natural Force vs. Structural Strength,'' 
Institute for Business and Home Safety, 2012, p. 5.
---------------------------------------------------------------------------
    States and localities determine the adoption and application of 
building codes and standards, which means that code adoption varies by 
State and locality. Five States representing 12 percent of the Nation's 
population have State building codes that are 9 or more years old. 
Where States allow local governments to determine code adoption, 25 
percent and 10 percent of residents in some Midwest and Gulf Coast 
States, respectively, also live in communities with years-old building 
codes. Of the 21 States that regularly face tornado risk, just 8 
require tornado shelters for schools.
    The IAFC thanks Congress for passing the Disaster Recovery Reform 
Act (DRRA; Pub. L. 115-124). This law focuses on pre- and post-disaster 
mitigation to reduce the cost of disasters. The bill creates a National 
Public Infrastructure Pre-Disaster Mitigation fund to help States take 
actions to prevent the threat of natural disasters. It also 
incentivizes States to adopt model building codes by providing Public 
Assistance funds to replace and restore damaged facilities to the 
latest codes and standards. In addition, Pub. L. 115-124 allows States 
that receive Fire Management Assistance Grants to receive post-fire 
hazard mitigation assistance to help communities recover and prevent 
deadly floods after wildland fires. We ask that Congress monitor the 
implementation of the DRRA to ensure that the Federal Emergency 
Management Agency meets its commitments.
                         community preparedness
    Local communities can take steps to prepare themselves for the 
threat of climate-related incidents. They can set and adopt current 
codes to ensure that buildings can sustain hurricane-strength winds or 
are built using fire-safe materials. Also, they can plan evacuation 
routes and exercise their implementation in case of advanced-notice 
events like hurricanes or short-notice events, like wildland fires. 
Also, Federal and State authorities can work together to clear 
hazardous fuels and plan for response to climate-driven risks like 
strong winds, flooding, and wildland fires. Local homeowners also 
should take steps like clearing brush around their homes to create a 
defensible space for wildland fires; boarding up their homes before 
hurricanes; and following State and local authorities' evacuation 
orders.
    The IAFC and local fire departments support community risk 
reduction efforts. For example, we urge Federal, State, Tribal/
territorial and local governments to develop community wildfire 
protection plans (CWPP). These plans identify and mitigate wildland-
fire risks within communities. They also guide hazardous-fuels 
reduction programs on Federal lands and prioritize Federal funding for 
associated projects.
    With the assistance of the U.S. Department of Agriculture's (USDA) 
Forest Service, the IAFC runs the ``Ready, Set, Go! (RSG)'' program to 
help communities prepare and respond to the threat of wildland fires. 
Using RSG resources, local fire departments assist residents in 
developing mitigation plans (Ready) and teaching them to be 
situationally aware (Set) and take action early and follow their 
personal wildland-fire action plans should there be a need to evacuate 
(Go). Currently, there are 1,881 RSG members in all 50 States.
    This type of community preparedness supports an all-hazards 
response. For example, the Barnegat Volunteer Fire Department near the 
New Jersey Pine Barrens was a long-time RSG member. The fire department 
spent more than 2,000 hours educating its communities about how to 
create defensible space, maintain situational awareness and develop 
evacuation plans in the case of wildland fires. When Hurricane Sandy 
struck in 2012, the fire department worked with the police department 
and used RSG planning to evacuate the community successfully.
    The IAFC recommends that Congress continue to support Federal 
programs that champion community preparedness planning. Community 
preparedness is a key component to addressing risks caused by the 
changing climate. By promoting collaboration at the local level, 
communities can work with Federal, State, Tribal/territorial and 
neighboring local agencies to educate local citizens about the risk of 
hurricanes, tornadoes, flooding, and wildland fires. They also can help 
the public to take actions to reduce these risks. Community-
preparedness programs also can help localities reduce the threat of 
climate-driven disasters by collaborating to reduce hazardous fuels and 
strengthen infrastructure, and help citizens take steps to strengthen 
their homes. Finally, these programs are important in helping local 
citizens to evacuate in a safe and timely manner.
                     ensuring an effective response
    When a climate-driven disaster strikes, the local fire department 
will be the first response unit on scene. For example, the NFPA reports 
that local fire departments responded to an estimated average of 
306,000 brush, grass, and forest fires in the United States per year 
from 2011-2015.\8\ An effective emergency response is key to reducing 
the damage from a disaster and ensuring an effective recovery.
---------------------------------------------------------------------------
    \8\ Marty Ahrens, Brush, Grass, and Forest Fires, National Fire 
Protection Association, September 2018, p. 7.
---------------------------------------------------------------------------
    At the local level, it is important to have experienced leadership. 
The U.S. Fire Administration (USFA) hosts the National Fire Academy 
(NFA), the Nation's premier fire and emergency services educational 
institution. As the fire service's mission has transformed to all-
hazards response, the NFA has helped generations of fire service 
leaders to manage that change. The NFA has trained more than 1.4 
million students since 1975. It includes both in-person and electronic 
courses to help fire service leaders adapt to the new missions that 
they face. We thank Congress for its continued support for USFA and NFA 
and are grateful for the Trump administration's proposed increase 
funding for these programs. We ask that Congress fund USFA at $50 
million for fiscal year 2020.
    It is important that fire departments be able to provide mutual aid 
to each other during major climate-driven disasters, both at the local 
and the National levels. For example, 17 States, including North and 
South Carolina, provided assistance to California in response to the 
October 2017 wildland fires. Developments in GIS and technology offer 
the opportunity to transform interstate and intrastate mutual aid and 
provide effective assistance in a timelier manner.
    In the aftermath of Hurricane Katrina, the IAFC helped States to 
create State-wide mutual-aid agreements and plans to deploy fire 
department staffing and equipment in response to major disasters and 
everyday incidents. To help States manage their resources, the IAFC 
developed Mutual Aid Net, which is still in use in 18 States today. 
This system is an addition to the Emergency Management Assistance 
Compact (EMAC).
    As a further evolution, the IAFC has partnered with Juvare's WebEOC 
and Esri's ArcGIS platforms to develop the National Mutual Aid System 
(NMAS). NMAS will be a tool used to request, locate, and deploy 
resources through all phases of a response. Using NMAS' GIS mapping 
tools, fire departments will be able to visualize in real-time where 
resources are, where they need to go, and determine response times for 
decision making.
    An adequately trained, staffed, and equipped local fire department 
is a significant component to the response to a climate-driven event. 
Local fire departments provide the initial response to the events. For 
example, local fire departments--in many cases, volunteer fire 
departments--provide nearly 80 percent of the initial attack on 
wildland fires in the United States. In addition, local fire 
departments play a key role in the National Preparedness System, where 
Fire Management and Suppression has been identified as a core 
capability of the National Preparedness Goal. When local communities 
require interstate or intrastate aid, they rely upon local fire 
departments across the Nation to provide aid through the EMAC, State 
mutual-aid plans or local mutual-aid plans. If local fire departments 
do not have adequate staffing and equipment, the National Preparedness 
System breaks down.
    However, there are serious challenges to the preparedness of the 
Nation's fire and emergency service. For example:
  <bullet> Almost three-quarters (71 percent) of the fire departments 
        who perform wildland firefighting or who fight structure fires 
        in the wildland urban interface (WUI) have not formally trained 
        all their firefighters in this activity.
  <bullet> Two-thirds of the departments that fight these fires have 
        firefighters who do not have the appropriate personal 
        protective equipment for wildland firefighting.
  <bullet> Twenty-nine percent of fire departments have firefighters 
        who have not received specialized training on firefighting in 
        the WUI.\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    Congress has taken steps to address these shortages. The Assistance 
to Firefighters Grant (AFG; also known as the FIRE Act) grant program 
and the Staffing for Adequate Emergency Response (SAFER) program 
provide matching grants to help local fire departments meet their basic 
needs and improve their capabilities to respond to all hazards. The AFG 
program helps localities train and equip for climate-driven disasters, 
like wildland fires, flooding, and windstorms. The SAFER program 
supports staffing for career, volunteer, and combination fire 
departments. The IAFC thanks Congress for its support for these 
programs and asks that both programs be funded at the fiscal year 2011 
level of $405 million for each program.
    Specifically, for wildland fire programs, Congress created the 
Volunteer Fire Assistance (VFA) program at the USDA's Forest Service. 
This program provides Federal assistance to State foresters to help 
rural fire departments respond to wildland fires on neighboring Federal 
land. Communities with populations of less than 10,000 can receive 
funding to use for training and equipment through the VFA program. The 
IAFC thanks Congress for the recent increases in funding for the VFA 
program and asks Congress to appropriate $18 million for the program in 
fiscal year 2020.
    As climate-driven disasters increase, the IAFC requests that 
Congress continue to fund the Urban Search and Rescue (US&R) System. 
The US&R teams are located across the Nation and possess critical 
skills in responding to hurricanes, tornadoes, wildland fires, and 
other climate-driven disasters. These specialized teams are 
internationally recognized for the life-saving aid that they provide to 
desperate communities. We urge Congress to fund $50 million for the 
US&R system in fiscal year 2020 to help the teams maintain their 
readiness in an advanced operational tempo. We also ask Congress to 
pass H.R. 639, which would clarify that Federal employees, like Federal 
firefighters, can participate in US&R teams.
    In addition, it is important to point out that programs like the 
State Homeland Security Grant Program (SHSGP) and the Urban Areas 
Security Initiative (UASI) support all-hazards response, despite their 
focus on terrorism preparedness. The programs use Federal funds as an 
incentive for fire; emergency medical services; law enforcement; public 
health; and other Federal, State, Tribal/territorial, and local 
agencies to plan and exercise together. Whether an act of terrorism, a 
wildland fire, or a hurricane, it is important for the key decision 
makers to have planned, trained, and exercised together before an 
event. Because of the beneficial role that these programs play in all-
hazards response, the IAFC asks Congress to reject the cuts proposed 
for fiscal year 2020.
                               conclusion
    I thank you for the opportunity today to testify about the effects 
of climate change on homeland security. For the Nation's fire and 
emergency service, the increase in climate-driven events has steered a 
transformation to an all-hazards response force. As the threat of these 
climate-driven events increases, the Nation must focus on taking steps 
to mitigate this threat and prepare to respond to more serious 
incidents over time.
    Specifically, the IAFC urges Congress to take the following 
actions:
    (1) Support Mitigation Efforts.--Congress made a good first step by 
        passing the Disaster Recovery Reform Act (Pub. L. 115-124). Now 
        Congress must ensure that it is implemented correctly. Congress 
        also must support the State and local adoption of current model 
        building codes and provide incentives for their adoption. We 
        know that these building codes will save lives and property. As 
        Congress considers legislation to modernize the Nation's 
        infrastructure, we ask that Federal funds be used to make sure 
        that new infrastructure meets the relevant model building 
        codes. We also ask that Congress support pre- and post-hazard 
        mitigation initiatives like the new Pre-Hazard Mitigation fund 
        established by the DRRA.
    (2) Support Community Preparedness Efforts.--Programs like the 
        Ready, Set, Go! program help local communities prepare for the 
        threat of wildland fires, floods, hurricanes and other climate-
        driven disasters. Community risk reduction and community 
        preparedness efforts help communities prepare for all hazards 
        and educate the public about steps that they need to take to 
        prepare their homes.
    (3) Support Federal Programs that Promote an Effective Emergency 
        Response.--When a disaster strikes, local fire departments will 
        be the first to arrive. The Federal Government realizes this 
        fact and supports programs like the AFG, SAFER, and VFA 
        programs to help train, equip, and staff fire departments. 
        Congress should support these programs and National assets like 
        the US&R system. We also ask that Congress continue to fund 
        training programs at the USFA and NFA.
    As the risk from climate-related events increases, the Nation must 
take steps to prepare ourselves to mitigate, respond, and recover from 
them. The Federal Government has taken steps with partners like the 
IAFC to prepare for these events. We recommend that Congress continue 
to support these efforts to keep Americans safe.

    Mr. Payne. Thank you, Chief.
    I want to thank you all the witnesses for their testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for questions.
    Dr. Caldas, what do you think is the most dangerous part of 
this administration's anti-science agenda?
    Ms. Caldas. Thank you, Mr. Chairman.
    I believe that there are several aspects of the anti-
science agenda that are not in the best interests of the 
American people.
    Sidelining expertise and independent scientific advice is 
one of them. Reducing access, public access, to science, 
Government science and Government-scientific reports. Also 
compromising public protections.
    That is because, by doing these things, they are preventing 
scientists from bringing the information to the public. They 
are preventing scientists from talking about their own science 
to the media and communicating it in a relevant way for the 
public and for policy makers.
    They are compromising protections--air quality protections, 
environmental protections, pollution protections--that are not 
in the best interests of the American people.
    They are also reducing--not reducing. They are also 
stopping and compromising the public advisory--scientific 
advisory committees. They are compromising or closing, shutting 
then down altogether.
    They are keeping scientific advisory positions not filled. 
They are vacant.
    Mr. Payne. Yes.
    Ms. Caldas. So all of this is not bringing science into 
policy making. All of these things together are not in the best 
interests of the American people and of the environment.
    Mr. Payne. Thank you. Yes, it appears that this 
administration really enjoys having many positions--now we are 
finding at DHS acting FEMA director, acting Secretary of 
Homeland, acting--everyone is acting, you know? It really 
causes a problem.
    Mr. Manning, I am very worried about the Trump 
administration's decision to roll back the rules that would 
require all infrastructure projects receiving Federal dollars 
to be built to flood-resistant standards. Can you discuss some 
of the future risk now that the Federal Government has 
abandoned this resilient building proposal?
    Mr. Manning. Thank you, Mr. Chairman. Yes, I share your 
concern with the eradication of those requirements.
    The Executive Order--the previous requirements on 
infrastructure investment was a 2-foot additional elevation 
above base flood elevation. You may all be familiar with the 
flood maps, flood zones. For critical activities, things like 
critical infrastructure, firehouses, command centers, an 
additional 3 feet.
    What we have seen--those were based on the IPCC most 
conservative guidelines of a 2-foot rise in sea level over the 
next 50 years. I think most people--and I would defer, 
actually, to my colleague to the right here, accept that that 
is an overly conservative estimate, that it is probably going 
to be closer to 4 or more feet over the next 50 to 100 years of 
sea-level rise.
    The base flood elevations as they are also don't account 
for severe rainfall. So all of the mitigation investments that 
we make, all of the public infrastructure investments we make 
as a Nation could potentially be at risk if we are building in 
low-lying elevations. We see repeatedly things like wastewater 
systems that don't function because of rising sea level making 
the drainage systems not work.
    We make investments in critical infrastructure facilities 
at places that will flood repeatedly. As it is today, we see in 
Annapolis, Maryland, right outside the Naval Academy, it floods 
frequently with no rainfall, just because of rising sea levels 
in the Chesapeake.
    A restoration of some restrictions, some additional 
freeboard in order to receive and spend Federal dollars in 
public infrastructure is an absolutely critical and wise 
decision into the future for us.
    Mr. Payne. Thank you, sir.
    I will now let the Ranking Member have 5 minutes for 
questions.
    Mr. King. Thank you, Mr. Chairman.
    Chief Eggleston, thank you for your testimony. Thanks for 
being here today.
    In your testimony, you discussed the importance of 
community preparedness. Now, as far as I know, in New York, New 
York City and the suburbs, they are pretty much on that, and 
they are actively engaged.
    But what can the Federal Government do to continue to work 
with and encourage communities across the country to achieve a 
culture of preparedness, especially a community that hasn't 
been hit yet and they just think it is somebody else's problem?
    Chief Eggleston. Thank you, Congressman, for the question.
    I think we have a lot going on right now in terms of 
partnerships, like with the IAFC and FEMA, programs in place. 
Our point and our ask at this point is to continue to fund 
those programs, encourage communities to reach out and engage. 
Our communities are constantly changing, education requirements 
are constantly evolving, so it is an ever-going process.
    But at the local level, I can tell you that we need some 
help in terms of funding to continue those programs into the 
future. But education is the key to help build a resilient 
community. Our process right now is unsustainable, in terms of 
our response. We have to build a more resilient and prepared 
community.
    Mr. King. Along those levels in the funding, one area, 
among others, that the Chairman and I would agree on is on the 
FIRE grants, SAFER grants. In fact, I guess beginning in the 
last year of the Obama administration, unfortunately all 3 
years of the Trump administration, their budget has called for 
really radical, severe cuts in those grants. The past three 
times, Congress has overcome that. Hopefully we will do it 
again. I think there is bipartisan support for those grants.
    But apart from the actual political benefit or the popular 
benefit of those grants, can you give some detail as to how the 
money is spent, why it is important, why it is not just another 
level of spending?
    Chief Eggleston. Certainly.
    Mr. King. I am on your side on this. I am giving you the 
opening there.
    Chief Eggleston. I can speak from my local department, in 
that we were a recipient of both a SAFER and an AFG grant.
    A SAFER grant allowed us to hire early 9 firefighters to 
kick-start a new station for our community that helped us lower 
our ISO rating, which provided benefits in terms of insurance 
savings to our citizens. But it also provided a much-needed 
protection to a very vulnerable population.
    We also were able to take advantage of an AFG grant to 
target a vulnerable population, those who live below the level 
of poverty in the southern part of our county, to go in and 
educate the community and install smoke detectors and have a 
conversation about how to reduce risk.
    So those are two real good examples of recent activities 
just in Albemarle County of how we benefited from those very 
valuable grants. I appreciate your support on those.
    Mr. King. Thank you.
    Not in a political sense but in a very effective 
Governmental lobbying sense, does the International Association 
of Fire Chiefs intend to take a stand on this and be 
aggressive, you know, contacting local Members of Congress, 
contacting the administration on this?
    Chief Eggleston. We do. We constantly encourage our members 
to reach out and engage with their elected officials to support 
the AFG and SAFER grants and all mitigation grants. We are 
actively involved in promoting any kind of mitigation 
activities to help us address this problem on the all-hazard 
problem, quite frankly.
    Mr. King. Well, thank you for your service. Thank you for 
cementing the relationship between me and the Chairman here 
today, sir.
    Thank you very much. I yield back, Mr. Chairman.
    Mr. Payne. Thank you, Ranking Member.
    Next, we will hear from the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman. I thank our Ranking 
Member. I want to thank our expert panelists for their 
testimony here today.
    The House has a responsibility to speak out and take action 
on climate change. Its impact to homeland security, I think, 
can't be minimized. FEMA has a very huge, mammoth task ahead of 
itself. Particularly when we are talking about emergency 
preparedness, we know that there are going to be multiple 
events. We have some still going on right now in the United 
States of America.
    I think it is critical that we look at this from a 
migration standpoint. There will be a point where people are 
unable to live in their communities if we don't begin 
mitigating the effects of climate change and will have to move 
to other parts of the country in order just to survive.
    So I want to politely disagree with my colleague Mr. King, 
who kind-of indicated that there is another area of 
jurisdiction that should be looking at this issue. I think we 
need an all-hands-on-deck, quite frankly, approach to what we 
know is already an issue for the American people.
    When we hear the President say climate change is fake news, 
one wonders whether he also believes that the Earth is still 
flat--or that the Earth is flat. Because denying the reality 
that greenhouse gas emissions are contributing to rising seas 
and extreme temperatures flies in the face of what we are 
experiencing, of the science. Within the scientific community, 
the debate has already been settled.
    So today's hearing is about recognizing that climate change 
is not only an environmental threat, but it is a threat to 
homeland security, and it is an existential threat to human 
life.
    Rising seas, flooding neighborhoods, they are also 
threatening critical infrastructure. So when farmers' fields 
run dry from prolonged drought, it creates a humanitarian 
crisis of hunger and despair, the seeds from which terrorism 
can emerge. We have seen this in other parts of the world. So 
we are not stretching here to have this hearing today.
    Last week, as vice chair of the Energy and Commerce 
Committee, I was proud to mark up a bill, and I am an original 
cosponsor of the Climate Action Now Act, which seeks to reverse 
the illogical withdraw from the Paris Agreement. The 
environmental causes of climate change are reason enough to be 
bold and take international action. The homeland security 
implications that we are discussing today only further 
reinforce the need to reduce carbon emissions and embrace green 
technologies before it is too late.
    My question, Mr. Manning, is on FEMA's capacity. We have 
seen some of the worst disasters in the previous few years, and 
FEMA, frankly, has seemed stretched too thin to adequately 
respond in all cases.
    Can you discuss some of the impacts to the agency and its 
work force if we don't get serious about incorporating efforts 
to mitigate climate change into our Federal policy?
    Mr. Manning. Thank you, Congresswoman. That is a wonderful 
and very on-point question.
    FEMA, the Federal Emergency Management Agency, does all of 
its budgeting, planning, and staffing based on an analysis of 
what they expect basically the next fiscal year's worth of 
disasters to look like. The planning goes, obviously, much 
longer than a fiscal year, but from a budgeting perspective, 
how many people work at FEMA, what does the staffing look like 
is all based on the fiscal years and a look backward at 
disasters.
    Not unlike the way Department of Defense has a two-theater 
approach to its strategic mission load, FEMA does the same with 
two type 1 disasters happening in two parts of the country at 
the same time. Those are defined roughly as the things that 
they experienced in the past.
    The concerns with not explicitly and overtly addressing the 
changes from a changing climate on the face of those disasters 
are that we will see--I mean, in combination with a migration 
of people to coasts and urbanization, we will see much larger 
disasters. We are already seeing much more intense hurricanes, 
much more heavy rainfall, and much more widespread flooding.
    If the disasters that we see, our run-of-the-mill--``run-
of-the-mill'' disasters are that much worse and our 
catastrophic disasters are that much worse, FEMA won't be 
positioned correctly with budgeting and resourcing and manpower 
to be able to deal with that.
    The planning assumptions on how the Federal Government 
organizes to support States will also be insufficient, because 
it will be based on two not-severe-enough of storms and 
disasters into the future.
    Ms. Clarke. I know. Can you say ``Puerto Rico''?
    With that, Mr. Chairman, I yield back.
    Mr. Payne. Thank you.
    Next, we will hear from the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the witnesses for appearing as well.
    Mr. Chairman, I have great respect for first responders, 
firefighters, peace officers, people who rush in when others 
are rushing out. Because I have such respect for them, I am 
curious about the esprit de corps, the morale, when we have 
fires in the West and they are consuming not only property but 
in many cases people, and the firefighters are there risking 
their lives, and we have a Commander-in-Chief who seems to say 
things that are antithetical to what they are doing. How does 
this impact the morale, the esprit de corps?
    Chief Eggleston. Thank you, Congressman, for the question.
    You know, firefighters are very task-oriented and mission-
focused. So, while I can't speak for the firefighters who were 
on the front line, I think that they were focused on protecting 
their communities. Because they have a love for the job and a 
love for their service and a love for their fellow citizens, 
and I think that is what motivates our firefighters.
    Of course, I am sitting here thinking that we always need 
to continue to support our first responders, firefighters, 
police officers, and EMS workers, at all cost, because they are 
the ones that have to deal with all kinds of everyday 
disasters, including the large fires that we have seen out in 
California.
    So I say we do that through recognition and support through 
Federal, State, and local funding is probably our best bet.
    Thank you.
    Mr. Green. Well, thank you.
    Let's talk about chemical plants. In Houston, Texas, we 
have a large concentration of chemical facilities. We recently 
had an event, and there was a requirement that persons shelter 
in place--shelter in place. Benzene was one of the chemicals 
that persons were exposed to.
    We have, as I understand it, a requirement that if a Coast 
Guard person is exposed to benzene in an amount considered 
dangerous, because it is a carcinogen, that we have to monitor 
that person for the rest of his life to check to make sure he 
is OK or she is OK.
    I don't know that we have similar regulations, 
requirements, rules for firefighters who are equally exposed. 
Do you have any intelligence that you can share with me on this 
question?
    Chief Eggleston. Yes, sir. I am involved heavily in the 
fire service in terms of cancer research. The IAFC supports the 
adoption of an annual physical for all firefighters, which 
includes screening for such cancers.
    Firefighters are almost twice as likely to get cancer than 
the average citizen. So we are very much focused on cancer 
prevention and screening and do support an annual physical so 
that we can keep firefighters' health safe and on the job.
    In terms of working with industry, we promote fire 
departments reaching out and engaging with local industry 
through their LEPCs to plan for, in the event of an issue at 
these localities, these plants, to plan long before the event, 
to make those arrangements and those relationships ahead of 
time and understand what the hazards to the citizens are. I 
just spoke last week about a similar subject.
    So I think it is really important to preplan those and 
engage with the local industry and have a unified approach to 
any emergency.
    Thank you.
    Mr. Green. Thank you.
    My final question may be a little bit off-subject, in the 
sense that this should relate more to first responders, in my 
opinion, and persons who are helping us, but there was a 
mention of children and how they are impacted by this.
    When you hear the call ``shelter in place'' and your child 
is away from you at school, can you give me some sense of what 
the school of this future should look like such that children 
will be able to properly shelter in place?
    Anyone.
    Chief Eggleston. I think it is important to focus on any 
future building codes that may build a more resilient school 
system. School systems and buildings that are built today have 
a wide range of hazards that we have to deal with, including 
things such as a threat from active shooters and environmental 
threats and man-made threats.
    So I would encourage us to continue to engage with our 
local code officials and work with them to build more resilient 
schools and think of an option like that--what would we need to 
do to build a more resilient building to better prepare and 
protect our children in the event of a shelter-in-place 
activity?
    Mr. Green. Mr. Chairman, you have been generous with the 
time. Thank you. I yield back.
    Mr. Payne. Thank you, sir.
    Next, we will hear from the gentleman from Texas as well, 
Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank everyone for being here today.
    One of the reasons I sought to join this committee was 
because of my district. It is in Houston. My district was 
devastated by Hurricane Harvey. Homes, businesses, lives were 
lost, of course. The severity of the storm has been mentioned 
in multiple opening statements, and I appreciate the focus on 
it.
    Although, we may disagree on this figure of 38 percent, 
that it is 38 percent worse because of climate change. That 
number is based on a computer model, not the scientific method. 
But it doesn't really matter. What we do agree on is that it 
was disastrous.
    Harvey wasn't the first major flood we have had in Houston 
either, because another thing we can agree on is that we have 
been experiencing these for literally hundreds of years. 
Between our founding in 1836 and 1936, Houston experienced 16 
major floods, some of these cresting to more than 40 feet above 
the bayou.
    I have a printout here, actually. It is by the Harris 
County Flood Control District. It is 11 pages' worth, since 
1836, 11 pages' worth of major flooding. It is Houston, after 
all. We are built on a bayou. We have clay for ground. Water 
doesn't flow out of it very easily. It is flat ground. So we 
understand how important this is more so than a lot of cities.
    In 1900, a deadly hurricane wiped out what was then the 
major regional city, Galveston. It was the deadliest storm in 
U.S. history. It killed more than 6,000 people, caused $35 
million in damage in 1900, equaling over a billion today. It 
was actually because of that hurricane that people began moving 
inland to what is now Houston. That is why Houston went from 
44,000 people in 1900 to almost 2 million a century later and 
well over 2 million today. Flooding has been a real problem in 
Houston ever since its founding.
    I didn't join this committee to discuss climate change. As 
was pointed out earlier, that is not even in this committee's 
jurisdiction. I find it to be a distraction. Because is it a 
problem? Yes. Is it happening? I am not going to debate that. 
But we are here to discuss disaster mitigation and how we can 
mitigate flooding in any community and communities around the 
country. That is what is important. That is what we can 
address; that is what we can control. That is what we should be 
addressing here today.
    With that, I will start with Chief Eggleston.
    Thank you for being here. Thank you for your testimony.
    You mentioned the benefits of the Disaster Recovery Reform 
Act and the importance of the new pre- and post-disaster 
mitigation grants. The DRRA created a National Public 
Infrastructure Pre-Disaster Mitigation Fund to help States take 
actions to prevent the threat of natural disasters.
    Just real quick, what are you most focused on in terms of 
implementation to ensure that FEMA can properly identify worthy 
investments?
    Chief Eggleston. Well, thank you, sir, for the question.
    I think that our focus should be on looking at the most 
vulnerable populations and also enforcing the building codes to 
build more resilient communities, is my feeling of where the 
focus should be.
    There is a wide range of communities out there that need 
this kind of assistance, so where to start with that, I 
couldn't tell you. But that would be my focus.
    Mr. Crenshaw. OK.
    The next question I want to ask is about the States' 
ability to administer these in a flexible way. The DRRA 
provides flexibility for States to administer their own post-
disaster housing strategies. Are there any other areas where 
more flexibility would be warranted? Essentially what I am 
asking is, where does Federal Government get in your way too 
much, or is it just about right?
    Chief Eggleston. Well, I have been involved in a couple of 
recoveries from Nationally-declared disasters, and I think the 
support that we have gotten from the State and from the Federal 
Government was just right. I was a chief of a small community 
that was devastated by a flood, and I thought the integrated 
response system that was set up back in the 1990's worked 
perfectly to help us recover and get back in shape rather 
quickly.
    So I am not sure exactly how to respond to that at this 
point, because I haven't had recent activity of a Nationally-
declared disaster. But I would say that we need to focus on the 
integration between the locality, the State, and the Federal 
Government to make sure that that transition is smooth and as 
less bureaucratic as possible.
    Mr. Crenshaw. Mr. Manning, would you have anything to add 
to those questions at all in my remaining time?
    Mr. Manning. Congressman, simply that, from my time as both 
a State official working for a Governor and the deputy 
administrator at FEMA, I know the partnership, the balance 
between Federal Government's support of State and local 
governments is something that has always been--there has always 
been an effort to right-size, to get that to work well.
    I think my experience now, in the couple years outside 
FEMA, the observation I have made is there seems to be strong 
partnerships between the current leadership of FEMA and the 
State and local government leadership. I think that has been my 
observation of recent months.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Payne. Thank you, sir.
    I think there--apparently there is a common thread from our 
colleagues on the other side of the aisle. Climate change is 
causing a lot of these disasters to be magnified. This 
committee deals with man-made and natural disasters. So I don't 
think it is--I beg to differ with my colleagues. I don't think 
it is out of line that we are discussing this today.
    Let's see. Is that everyone?
    Oh, Ms. Underwood. I am sorry. The gentlelady from Illinois 
is recognized for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman.
    This topic is critically important to us in the Illinois 
14th District. My community in northern Illinois is facing 
increasing threats dues to flooding along the Fox River in 
McHenry County.
    We must be prepared to respond to the serious safety and 
economic risks that this flooding poses to the many homes and 
businesses located along the river. Persistent flooding can 
delay planting and damage crops, hurting our agriculture 
industry. Our existing water infrastructure is degrading even 
faster under these more extreme conditions.
    Flooding has National security implications as well. Some 
of our major Air Force and naval bases already experience 
frequent floods. Three National Guard armories are located in 
McHenry County alone.
    So this issue isn't going away. In fact, researchers 
suggest that this kind of extreme flooding will be the new 
normal in our community because of climate change. Some of your 
testimony did touch on flooding, and I would like to thank you 
for including that level of detail.
    My first question is for Dr. Caldas.
    You are a climate scientist, and from your professional 
perspective, can you tell us more about the specific threats 
that climate change poses to communities like mine in the 
Midwest?
    Ms. Caldas. Thank you, Congresswoman.
    The main aspect of the impacts inland is the extreme 
precipitation events that are increasing not only frequency but 
in intensity. The amount of rain falling in the 1-percent 
heaviest events has increased quite a bit in the Midwest, 
second only to the Northeast of the country.
    So when you look at the main impacts that are already 
correlated with climate change, the extreme precipitation 
events is one that we can talk about. Because flooding is the 
main consequence of extreme precipitation events, as you 
mentioned, there will be quite a bit more flooding in the area 
of your State.
    However, we must not focus only on the physical impacts, 
right? This is a committee on preparedness and response. So 
when we talk about these disasters, we have to talk about 
people. People are going to be exposed not only to the physical 
impacts of these extreme events--the rain itself, the flooding 
itself--but also the psychological impacts, the social impacts, 
and everything that comes with a flood. Their house may not be 
flooded, but their place of work may. The school of their 
children may. They may lose their wages because they cannot go 
to work.
    They have psychological impacts because they get flooded 
over and over again. I can yield to Mr. Manning here to talk 
about repetitive losses if places get inundated over and over 
and over again. Not only the mental impact is very big but also 
the impact on the preparedness.
    So I would say that extreme precipitation events and 
flooding are No. 1.
    Ms. Underwood. Yep. We are seeing that even in our 
neighboring State of Iowa. So much of that State has had 
catastrophic floods over the last month or so. It could happen 
anywhere. It is happening more frequently.
    Ms. Caldas. If I may, this last flooding event, it was not 
even an extreme precipitation event. It was more of a perfect 
storm, because there was record-breaking snowfall, which was 
because there is a lot more water vapor in the atmosphere. That 
is extreme precipitation in the form of snow, not rain.
    So all that snow was there, and then the rain came down and 
the snow was melted. With the frozen ground, there was nowhere 
for the water to go but to the river, and all blocked up.
    Ms. Underwood. Yep. So what can we expect to see in the 
Great Lakes region in the next 5 or 10 or 20 years? What do you 
think?
    Dr. Caldas.
    Ms. Caldas. Oh, you asking him?
    Ms. Underwood. No, no. You.
    Ms. Caldas. I, unfortunately, don't have a lot of specific 
detail on----
    Ms. Underwood. OK.
    Ms. Caldas [continuing]. The Great Lakes. It is a very 
important region, of course--fresh water and everything. I have 
heard several people saying that it is going to be one of the 
regions that is going to be the focus of a lot of migration.
    Ms. Underwood. Thank you.
    Flood waters, of course, don't just go away right after a 
flood. Communities can remain under water for days or weeks, 
like we just discussed.
    So, Ms. Trousdale, can you discuss the public health 
consequences of standing water after a flood? How are kids 
potentially vulnerable to these consequences?
    Ms. Trousdale. Thank you for the question.
    Flood waters obviously pose a severe drowning risk for 
children. They are among the most likely to drown in a flood. 
It also can pose electrical hazards when there are downed power 
lines. It can mix with raw sewage and toxic chemicals and then 
leave behind residues that can contaminate children's 
belongings, and children with open wounds can come into contact 
and also be infected.
    Then the retreat of flood waters obviously leaves behind 
mosquito-breeding habitats, which can spread the vector-borne 
diseases such as Zika and Dengue. Of course, children, because 
their immune systems are still developing, they are potentially 
at greater risk for harm from these infectious illnesses.
    Ms. Underwood. Thank you.
    You wrote in your testimony that children remain an 
afterthought in preparedness, response, and recovery measures 
during these natural disasters. I know that our committee is 
committed to making sure that they are no longer an 
afterthought moving forward.
    Thank you so much for all of your work and for appearing 
here today.
    Mr. Chairman, I yield back.
    Mr. Payne. Thank you.
    We probably have a little time to ask another round, if you 
have time.
    But let me say that, you know, the issue around climate 
change and whether this is the proper jurisdiction, I was going 
to get into that a little deeper, but I will accept that 
everyone is entitled to their opinion.
    Mr. Manning, can you explain to this committee why fighting 
climate change matters in our efforts to stop terrorism?
    Mr. Manning. Well, thank you, Mr. Chairman.
    You know, similar to the conversations we have been having 
about the domestic impacts of changing growing patterns, of 
weather patterns, flooding, that is an impact that is happening 
globally. We have seen--currently, there are conflicts in North 
and East Africa that are largely climate-driven, where there 
are conflicts between pastoral herders and agrarian farmers 
for--resource conflicts. I think there is a potential future 
where there are growing resource conflicts--access to clean 
drinking water, access to grazing lands, growing lands.
    As you increase conflict, you have instability in nations, 
you have radicalization, you have all of the ingredients 
necessary that we have seen historically that lead toward 
radicalization and terrorism.
    There is some argument that the Syrian conflict has roots 
in resource conflicts, climate-driven resource conflicts. It is 
no secret to anybody, the impacts on our National security from 
the growth of IS in the Syrian region.
    So there is most definitely a link, a concern, going 
forward, with the changing climate, what effect that changing 
climate has on societies world-wide and the potential conflicts 
that can be driven by access to resources as a result of those 
changes.
    Mr. Payne. Thank you.
    Ms. Trousdale, a lot of my work has been around vulnerable 
populations since becoming a Member of this subcommittee, 
Ranking Member, and now Chairman. So that is something--
children in vulnerable populations has been one of my main 
focuses.
    As a matter of fact, I was fortunate enough to pass the 
CLASS Act of 2019 last week, which deals with active shooters. 
We know what that devastation has been to our young people 
across the country, as well as other populations.
    Can you discuss any inequities in disaster recovery in 
children? Are we seeing worse outcomes in poor, minority 
children after a disaster?
    Ms. Trousdale. Thank you for the question, Chairman Payne.
    Unfortunately, disaster aid tends to favor wealthy 
Americans and white Americans and homeowners. Because they have 
relatively good jobs and higher incomes, they are able to have 
some flexibility when they are in the recovery period searching 
for new places to live. They are able to better navigate the 
bureaucracy in order to access aid. They usually have a 
stronger social network, so they are able to have help finding 
new jobs and places to stay.
    Because of this, they tend to do better than families with 
lower incomes and from communities of color. This exacerbates 
the existing economic and social inequities that exist. This, 
obviously, then persists with the inequalities we see and the 
health disparities that we are seeing among children as well.
    It is just an unfortunate circumstance, and we need to 
really address the issues that what may appear on surface as 
equitable treatment in the cases of disaster aid doesn't 
necessarily result in equitable benefits. This just means that 
our children from more vulnerable and under-resourced 
communities end up in worse positions than they started, and it 
exacerbates their health.
    Mr. Payne. Thank you.
    You know, I stay committed to raising these issues on a 
National level in order that there is some equity for all 
Americans in disaster times. We see what Katrina did. We saw 
what Harvey did. You know, people of lesser means suffered 
magnificently, incredibly. So I will continue to raise those 
issues.
    I will recognize the gentlelady from Illinois once again.
    Ms. Underwood. Thank you, Mr. Chairman. Just a quick 
comment on the scope, climate change, and its role in this 
committee.
    You know, FEMA did include climate change in its strategic 
plan over a number of years as a considerable threat to our 
country and our on-going National security, including while Mr. 
Manning was at the agency, included climate change, which was 
important to allow the agency to plan forward.
    So this subcommittee, which does deal with emergency 
preparedness, response, and recovery, must recognize the 
totality of the threats facing our Nation in order for those 
most vulnerable Americans to have a chance at survival during a 
disaster.
    It is critically important, sir, and I would like to thank 
you for holding this hearing today.
    I am a nurse. I don't know if you all knew that. As health 
providers, we are trained in a number of areas. During my 
training, there wasn't necessarily a specific focus on disaster 
medicine, and I know that that is the case for a variety of 
health professionals. But we do know that the care that folks 
receive after an emergency or after a disaster is critically 
important. So I want to speak a little bit about these training 
needs.
    Ms. Trousdale, do you know or can you speak about the level 
of training that providers receive in order to identify and 
treat post-disaster medical issues, both for children and those 
around them? Then do we need to provide more professional 
training for medical response after a disaster?
    If you could just provide some comments there.
    Ms. Trousdale. Thank you for the question.
    I can't speak to the level of training that health care 
professionals currently receive regarding disaster response. I 
can speak to the fact that we need climate change and 
environmental health curricula in medical schools and nursing 
schools, and it is an important component of schools of public 
health as well.
    All in the medical field need to understand the underlying 
issues of pediatric environmental health and how children have 
unique vulnerabilities so that they can better anticipate their 
needs in a disaster, plan for them, and then be able to 
respond.
    It is not just the immediate responses that are necessary, 
whether it is the physical trauma or the emotional health 
issues, but it is following them up afterwards and making sure 
that these children aren't--say, a child with asthma isn't 
returning home to a home that is filled with mold or that has a 
leaky roof and that children aren't returning to schools that 
have toxic residues left over from a flooding clean-up that 
wasn't done correctly.
    So it is really important that all medical and nursing 
professionals have a basic understanding of how children are 
not just like adults but uniquely vulnerable.
    Ms. Underwood. Thank you.
    Did anyone else on the panel want to comment on that, 
health professional training?
    Mr. Manning. Well, Congresswoman, I would just like to jump 
in to suggest that we always could use more training, in my 
experience.
    One of the roles I played at FEMA was overseeing the 
Nation's training and education for the whole Homeland Security 
mission, the emergency management part of that. The Department 
trained millions of first responders a year. While I am very 
proud of that, it is never enough. There is always more that 
can be done.
    We will become a stronger Nation and a stronger community 
with stronger first responders but also general practitioners 
and neighbors that know more about how to help each other in 
emergencies. So I would fully support that.
    Ms. Underwood. Thank you.
    With that, I will yield back. Thank you, sir.
    Mr. Payne. Thank you.
    I would like to thank the witnesses for their testimony 
today. It has been invaluable. We would like to thank all of 
you for your valuable testimony and the Members for their 
questions.
    Members of the subcommittee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days, without objection.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Question From Chairman Donald M. Payne, Jr. for Astrid Caldas
    Question. What would you say to the people that still have doubts 
about the current science pointing to the fact that human activity is 
contributing to climate change?
    Answer. I would say that real, observational data tells us that 
there are unprecedented amounts of carbon dioxide (CO<INF>2</INF>) and 
other heat-trapping gases in the atmosphere, that CO<INF>2</INF> levels 
have never been this high, and that the amount and speed of warming 
currently observed has not been seen in the history of human 
civilization. And I would tell them that yes, scientists can tell with 
certainty (from both physics and chemistry) that human activity is 
contributing to it.
    The physics of global warming has been known for over a century, 
and the relationship between CO<INF>2</INF> and warming is well 
understood. The more CO<INF>2</INF> there is in the atmosphere, the 
warmer it gets.
    Scientists know that the massive increase in carbon dioxide is 
almost entirely due to human activity by calculating how much 
CO<INF>2</INF> comes from burning fossil fuels and how much comes from 
natural sources. That is because carbon from fossil fuels has a 
different isotopic ``signature'' than carbon from other sources. 
Because of that difference, we can say that carbon coming from fossil 
fuel emissions is the largest contributor of CO<INF>2</INF> 
concentrations since pre-industrial era. [An isotope is each of 2 or 
more forms of the same element that differ in relative atomic mass but 
not in chemical properties]
    Added context for understanding the problem:
    There is a well-known concept in psychology called confirmation 
bias, which is our tendency to only listen to information that confirms 
our existing beliefs or ideas. When people would like a certain idea/
concept to be true, they end up believing it to be true and seek 
information that validates it. This cognitive bias is most pronounced 
in the case of ingrained, ideological, or emotionally-charged views.
    This is in part what has happened with climate change. So, telling 
people more about the science is usually a moot exercise--even if it is 
the truth. Mainly, we need people to see for themselves how things have 
changed through the years and make the right connections. That is not 
an easy thing to achieve.
    I will however, highlight that confirmation bias is not a core 
value such as faith, honesty, or ethics. People live by core values, 
and those are usually unchangeable. Acceptance of climate change is NOT 
a core value, and therefore can be changed. The process for change is 
mostly through social processes and interactions: If my peer circle 
says there is no climate change, I agree because I want to belong to 
the circle, it is important to me to be accepted in it, INDEPENDENTLY 
of what the prevalent or scientifically true view is--it doesn't really 
matter because it is not a core value. In fact, studies show that if a 
trusted leader of a social circle changes their view, the circle can 
change it too, unless there is a personal interest in keeping the old 
view. The hardest part is, of course, for that leader to step up and do 
the right thing.
     Questions From Chairman Donald M. Payne, Jr. for Dan Eggleston
    Question 1. Do you think first responders, and the technology being 
developed for first responders, are adequately considering how climate 
change will affect their jobs?
    Answer. Response was not received at the time of publication.
    Question 2. Do you think we need more research into the effects of 
climate change, both current and future effects, on first responders?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
